<html>
<title> - ELEMENTARY AND SECONDARY EDUCATION ACT REAUTHORIZATION: ADDRESSING THE NEEDS OF DIVERSE STUDENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                        ELEMENTARY AND SECONDARY
                     EDUCATION ACT REAUTHORIZATION:
                ADDRESSING THE NEEDS OF DIVERSE STUDENTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 18, 2010

                               __________

                           Serial No. 111-53

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
55-304 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Donald M. Payne, New Jersey          Michael N. Castle, Delaware,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Rush D. Holt, New Jersey             Thomas E. Petri, Wisconsin
Susan A. Davis, California           Peter Hoekstra, Michigan
Raul M. Grijalva, Arizona            Mark E. Souder, Indiana
Joe Sestak, Pennsylvania             Vernon J. Ehlers, Michigan
David Loebsack, Iowa                 Judy Biggert, Illinois
Mazie Hirono, Hawaii                 Todd Russell Platts, Pennsylvania
Jared Polis, Colorado                Cathy McMorris Rodgers, Washington
Pedro R. Pierluisi, Puerto Rico      Rob Bishop, Utah
Gregorio Sablan, Northern Mariana    Bill Cassidy, Louisiana
    Islands                          Tom McClintock, California
Lynn C. Woolsey, California          Duncan Hunter, California
Ruben Hinojosa, Texas
Dennis J. Kucinich, Ohio
Jason Altmire, Pennsylvania
Dina Titus, Nevada
Judy Chu, California











                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 18, 2010...................................     1

Statement of Members:
    Castle, Hon. Michael N., Ranking Minority Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     3
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Additional submission:
            Prepared statement of the Tribal Education 
              Departments National Assembly......................    61
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor, submission for the record:
        Letter, dated March 25, 2010, from the National 
          Disability Rights Network (NDRN).......................    64

Statement of Witnesses:
    Curry, Dr. Daniel, superintendent, Lake Forest School 
      District, Kent County, DE..................................    36
        Prepared statement of....................................    38
    Dale, Dr. Jack, superintendent, Fairfax County Public 
      Schools, Fairfax, VA.......................................    40
        Prepared statement of....................................    41
    Diaz, Arelis E., assistant superintendent of curriculum/
      instruction and human resources, Godwin Heights Public 
      Schools....................................................    21
        Prepared statement of....................................    22
    Gipp, Dr. David M., on behalf of the National Congress of 
      American Indians and the National Indian Education 
      Association................................................    14
        Prepared statement of....................................    16
    Kearns, Jacqui Farmer, Ed.D., Principal Investigator, 
      National Alternate Assessment Center, U.S. Department of 
      Education..................................................    26
        Prepared statement of....................................    28
    Wotorson, Michael, executive director, Campaign for High 
      School Equity..............................................     7
        Prepared statement of....................................     9

 
                        ELEMENTARY AND SECONDARY
                     EDUCATION ACT REAUTHORIZATION:
                       ADDRESSING THE NEEDS OF
                            DIVERSE STUDENTS

                              ----------                              


                        Thursday, March 18, 2009

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Scott, Davis, Loebsack, 
Polis, Pierluisi, Sablan, Hinojosa, Kucinich, Titus, Chu, 
Castle, Petri, Ehlers, Biggert, and Platts.
    Staff present: Tylease Alli, Hearing Clerk; Jody Calemine, 
General Counsel; Jamie Fasteau, Senior Education Policy 
Advisor; David Hartzler, Systems Administrator; Fred Jones, 
Staff Assistant, Education; Sharon Lewis, Senior Disability 
Policy Advisor; Sadie Marshall, Chief Clerk; Ricardo Martinez, 
Policy Advisor, Subcommittee on Higher Education, Lifelong 
Learning and Competitiveness; Bryce McKibbon, Staff Assistant; 
Lillian Pace, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education; Kristina Peterson, Einstein 
Fellow; Alexandria Ruiz, Staff Assistant; Melissa Salmanowitz, 
Press Secretary; Stephanie Arras, Legislative Assistant; James 
Bergeron, Deputy Director of Education and Human Services 
Policy; Kirk Boyle, General Counsel; Alexa Marrero, 
Communications Director; Susan Ross, Director of Education and 
Human Resources Policy; and Linda Stevens, Chief Clerk/
Assistant to the General Counsel.
    Chairman Kildee [presiding]. A quorum being present, the 
hearing of the subcommittee will come to order. Pursuant to 
subcommittee rule 12(a), all members may submit an opening 
statement in writing, which will be made part of the permanent 
record.
    I now recognize myself for an opening statement.
    I want to welcome everyone to today's hearing, entitled 
``ESEA Reauthorization: Addressing the Needs of Diverse 
Students.'' We have been talking about this for many years. I 
can recall when we first coined the word ``disaggregated 
data,'' and that word has been in our lexicon since.
    The timing of this hearing is critically important, as we 
continue to review the administration's blueprint for ESEA 
reauthorization and work as a committee to reform our nation's 
primary K-12 education law. I hope today's discussion brings us 
one step closer to that goal.
    The governor and I here have met regularly with the 
secretary of education and with some of the Senate leaders on 
this bill. This is a high priority. The governor and I have 
worked together many times on good education bills and look 
forward to this process.
    I also want to thank our witnesses for taking the time out 
of their very busy schedules to inform this process. We can't 
do our jobs, really, without input from educators, advocates, 
and researchers who are working hard to help all children 
succeed.
    Like many of my colleagues, I am pleased that we are 
embarking on another bipartisan reauthorization. I have 
participated in five reauthorizations of ESEA during my 34 
years here in Congress and strongly believe that this next 
reauthorization is long overdue.
    While the No Child Left Behind Act shed light on the 
inequalities in our education system, it unfortunately did not 
do enough to close the achievement gap for diverse students.
    The federal government has a responsibility before all 
others to ensure equal opportunity. This must be a top priority 
for future steps in education reform. Just as our country grows 
increasingly diverse, we must ensure that our education system 
adapts to varying student needs.
    By strengthening current programs for diverse students and 
investing in innovative strategies for closing the achievement 
gap, we have an opportunity to change the future course for 
millions of students.
    It is very interesting when you look around our country 
today--and even at the time that I first entered politics--we 
find a cross-section basically of the world. You go to 
California, for example, and you find no majority ethnic group. 
And as a cross-section of the world, we should set an example 
for the rest of the world, how we can live together in peace 
and educational development.
    So you have in your hands an enormous responsibility to 
make us become aware of our responsibility during this hearing 
today.
    We must also explore ways to eliminate the system's 
inequalities, encouraging a more equitable distribution of 
resources, expanding access to rigorous curriculum in high-need 
communities, and providing incentives to improve the 
distribution of effective teachers.
    As we continue to explore these ideas and many others that 
we will hear in the weeks and months to come, I hope we never 
lose sight of the opportunity we have before us. We must 
prepare to do what is right for all students, even if it 
requires a lot of work and significant change.
    Today we will hear recommendations from a panel of 
educators, advocates, and a researcher working to close the 
achievement gap for diverse students. These panelists will help 
us better understand the challenges facing low-income minority 
students, English-language learners, students with 
disabilities, Native American students, and homeless students.
    Given the importance of today's topic, I know our panel 
will give us a lot of thoughts to ponder over as we work across 
the aisle and the capital to improve our education system. I 
look forward to your testimony.
    It is my pleasure to yield 5 minutes or such time as he may 
consume to Governor Castle. Governor?
    Mr. Castle. Thank you very much, Mr. Chairman.
    I am very pleased also to be here and to welcome all the 
witnesses here today to what I think is an important hearing. I 
would like to thank you, Chairman Kildee, for holding today's 
hearing. This is a fourth in the current series, as I 
understand it, as the committee begins the process of 
reauthorizing the Elementary and Secondary Education Act.
    I would also, obviously, like to thank all the people who 
come here today to listen to this testimony. I believe it is 
imperative that we examine all these issues thoroughly, 
particularly through this hearing process.
    We began the process last Congress, and I am glad that 
today we are taking another look at our nation's diverse 
student populations, which includes students with disabilities, 
English-language learners, students in rural areas, Native 
American students, homeless students, and minority and ethnic 
students.
    Addressing the needs of these students was the driving 
force behind the most recent overhaul of federal K-12 education 
policy, which Congress passed in 2001. Prior to that time, 
states and school districts were not required to report the 
academic achievement of these subgroups, and many schools were 
masking the lagging performance of these students with the test 
scores of their more affluent, higher performing students.
    In 2001, we put these students front and center, and states 
and school districts all across the country have responded with 
innovative programs and practices to ensure that all students 
now have the opportunity to succeed academically, but it hasn't 
been easy. This new focus on diverse learners has presented 
significant challenges to states, school districts, and 
schools, who have struggled to make changes in teacher 
professional development, curriculum and instructional 
strategies to ensure diverse student populations have every 
opportunity to meet high academic standards, and that is why we 
are here today.
    We owe it to these students to ensure that they receive the 
same high-quality education as their peers. But we also owe it 
to states and local areas to give them the tools necessary to 
educate students for the wide range of needs.
    Current law was crafted under the guiding principle that 
all students can and deserve to learn, diverse student 
populations being no exception. As we begin rewriting ESEA this 
year, we cannot lose sight of this. I believe that our 
witnesses today will provide us with valuable information about 
the importance of and the challenges that states and school 
districts face in educating diverse student learners.
    I hope to hear how educators at the state and local levels 
are working to ensure that special populations are receiving 
high-quality instruction that can lead to high academic 
achievement. I also want to hear that where there have been 
problems and challenges in the implementation of current law 
from the state, school district and school level.
    Finally, I look forward to suggestions about how to reform 
ESEA to ensure that it accounts for the complexities that 
states, school districts and schools must address in educating 
diverse learners, especially how we ensure that they are 
properly assessed so that teachers and school administrators 
can develop appropriate strategies.
    I hope today's hearing will help us understand these issues 
better, which are some of the most difficult and important ones 
facing us in current law and issues that must be considered 
carefully as we craft education reform policy this year.
    I thank you again for joining us this Thursday morning, and 
I look forward to your testimony. And I yield back, Mr. 
Chairman.
    Chairman Kildee. Thank you very much, Governor.
    Without objection, all members will have 14 calendar days 
to submit additional materials or questions for the hearing 
record.
    Now I would like to introduce our very distinguished panel 
of witnesses here this morning. Michael Wotorson is the 
executive director of the Campaign for High School Equity, a 
partnership of 10 leading civil rights and educational 
organizations focused on high school education reform. Mr. 
Wotorson has spent his career advocating in support of 
educational equality and civil rights, working for more than 15 
years as a researcher, advocate and policy analyst.
    Prior to joining CHSE, Mr. Wotorson was national education 
director for the NAACP and has held numerous other positions, 
including at the Mid-Atlantic Equity Center Leadership 
Conference on Civil Rights Education Fund, Fair Employment 
Council of Greater Washington, and the Anti-Defamation League. 
Originally from Liberia, West Africa, Mr. Wotorson holds 
bachelor and master of arts degrees in political science from 
the University of Missouri-Columbia.
    Our second witness is Dr. David Gipp, who is a citizen of 
the Standing Rock Sioux Tribe in North Dakota and has served as 
president of the United Tribes Technical College since 1977. 
United Tribes College serves over 1,100 adults and 500 
children, with three early childhood centers and a K-8 
elementary school.
    Among other posts, President Gipp has served as an 
education adviser for the greater plains tribes on the Bureau 
of Indian Affairs Tribal and Advisory Budget Council, board 
member for the National Indian Education Association, executive 
director and past president and current board member of the 
American Indian Higher Education Consortium, and past chair and 
current board member of the American Indian College Fund.
    He has also received numerous recognitions, including the 
North Dakota governor's service award, the National Indian 
Education Association's Indian educator of the year, and the 
North Dakota multicultural educator of the year. President Gipp 
was educated at the University of North Dakota and holds a 
doctorate in laws, honoris causa, from North Dakota State 
University for his contributions to tribal higher education.
    I will now yield to my colleague, Congressman Ehlers, 
colleague and friend, who is voluntarily leaving the Congress. 
That is the best way to leave. Some leave involuntarily, but 
Vern has served well here.
    I one time was--give me a minute here--I one time was asked 
by a reporter from his paper who was doing a little profile on 
him what I thought about Vern Ehlers, and I told the reporter 
that if we had more Vern Ehlers in the Congress, we could get 
things done around here rather than sitting around shouting at 
one another, and I still believe that today. He is a credit.
    Mr. Ehlers. Thank you, Mr. Chairman, for those kind words, 
and the feeling is mutual.
    I am very pleased to introduce my constituent, Arelis Diaz, 
who is the assistant superintendent of Godwin Heights Public 
Schools. This is a school district that serves approximately 
2,200 preschool through 12th grade students in Wyoming, 
Michigan.
    Now, you have to understand geography in Michigan. The city 
of Wyoming, which she is from, is about 10 miles west of 
Alaska. Another interesting quirk in my district is we have a 
harbor in my district, and it is located roughly one mile from 
Podunk, so--so we have great diversity in my particular 
district.
    She has had academic success with diverse students, 
including English-language learners, which is a big deal in our 
area, because the nature of our district--the people are very 
generous, and we have received far more than our share of 
refugees from other countries. And that shows in our school 
districts that we have handled them very well, and she is had 
great success with that.
    Prior to her current position, she was a principal and led 
North Godwin Elementary to be recognized as a high-performing 
school by the Just For Kids program at the Michigan Chamber 
Foundation. The school also recently received a Dispelling the 
Myth award by the Education Trust.
    As a teacher for English-language learners, she was 
recognized by the Michigan education association for her work 
in promoting diversity. Arelis has also received the 
educational excellent award by the Michigan school boards 
association for her development of the Parents are Teachers 
English-language learners parent after school program. So you 
can see she is had experience in many different areas in 
dealing with non-English-speaking students.
    Born as a first-generation American in Chicago to immigrant 
parents from the Dominican Republic and raised in Puerto Rico, 
Arelis now lives with her husband, Andre, and their three 
children in Byron Center, Michigan. I am pleased to introduce 
her to the committee.
    Thank you.
    Chairman Kildee. Our fourth witness, Dr. Jacqui Kearns, 
serves as principal investigator for the federally funded 
National Alternate Assessment Center, which assists five states 
in developing validity evaluations for their alternate 
assessments on alternate achievement designs. She played a key 
role in the design and implementation of the first alternate 
assessment used in an accountability system as part of 
Kentucky's education reform act in the early 1990s.
    Dr. Kearns also helped a number of states in the design, 
implementation and evaluation of alternate assessments after 
passage of the IDEA reauthorization in 1997. Dr. Kearns is a 
third-generation educator with 9 years of district classroom 
experience teaching students with significant cognitive 
disabilities. She is a parent of two children, ages 7 and 4, 
one of whom was recently diagnosed with ADHD and is receiving 
service through response to intervention, RTI.
    I will now yield to our committee's ranking member, 
Governor Castle, to introduce the final two witnesses.
    Mr. Castle. Thank you, Mr. Chairman.
    And happy to introduce our witnesses. First, there will be 
Dan Curry. Dr. Daniel Curry currently serves as the 
superintendent of Lake Forest School District in my home state 
of Delaware. The Lake Forest School District serves more than 
3,700 students in southern Kent County, Delaware, 15 miles 
south of the capital of Dover.
    Dr. Curry began his 36-year education career at a local 
elementary school in Pocahontas County, West Virginia, where he 
taught fourth and sixth grade before his first assignment as 
the principal at age 24. During his time in the county, he 
served as an elementary school principal, a middle school 
principle, and all-purpose central office administrator, and 
even drove a school bus on occasion, representing the dual 
roles that most educators play in small rural areas.
    At age 34, he was named county superintendent, where he 
served for a total of 15 years. Dr. Curry has also worked in 
the West Virginia Department of Education. And he and I spent 
time together touring the Lake Forest people, I should say, at 
a school, and he is a wonderful tour guide, too, and everyone 
seems to like him greatly in the job he is doing.
    Dr. Jake Dale is the current superintendent of Fairfax 
County Public Schools, the nation's 13th-largest school system. 
He has served as superintendent since July 2004. From 1996 
until 2004, Dr. Dale served as superintendent for Frederick 
County public schools where, in his fourth year, he was named 
Maryland's superintendent of the year.
    I would like to point out I have been in Congress for 18 
years and nobody has ever named me the outstanding legislator 
of the year or anything like that.
    Previously, Dr. Dale served as the associate superintendent 
for school administration, curriculum, and instruction at the 
Edmonds School District in Edmonds, Washington. He also served 
as director of personnel in the Everett, Washington, school 
district, assistant to the director at the Center for the 
Assessment of Administrative Performance at the University of 
Washington and director of school instructional services, 
assistant principal, and mathematics teacher in the Bellevue 
School District, Washington.
    Dr. Dale is co-editor and author of the book ``Creating 
Successful School Systems'' and has conducted workshops on 
teacher compensation systems for No Child Left Behind 
initiatives. He has also published papers in the Executive 
Educator, International Journal of Education Reform, American 
Association of School Personnel Administrators, Research Brief 
and SIRS Management Information, all of which are publications 
we read up here on a regular basis, sort of tongue-in-cheek.
    But I congratulate Dr. Dale on a wonderful career, as well, 
and we are delighted to have all the witnesses here today.
    Chairman Kildee. Thank you very much, Governor.
    Before we begin, let me briefly explain our lighting system 
and the 5-minute rule. Everyone, including members of Congress, 
is limited to 5 minutes of presentation or questioning. The 
light is green when you begin to speak. When you see the yellow 
light, it means you have one minute remaining. When the light 
turns red, your time has expired and you need to conclude your 
testimony.
    Please be certain as you testify to turn on and speak into 
the microphones in front of you. Don't worry, there is no 
ejection seat. So if you want to, you know, finish a thought, 
you don't have to cut it off in the middle of that.
    So we will now hear from our first witness, Mr. Michael 
Wotorson.

    STATEMENT OF MICHAEL T.S. WOTORSON, EXECUTIVE DIRECTOR, 
                CAMPAIGN FOR HIGH SCHOOL EQUITY

    Mr. Wotorson. Chairmen Kildee, Ranking Member Castle, and 
distinguished committee members, good morning and thank you for 
inviting me to testify. My name is Michael Wotorson, as was 
stated earlier, and I serve as the executive director for the 
Campaign for High School Equity.
    I am here this morning not only representing the civil 
rights coalition that comprises our organization. I am here to 
speak on behalf of the over 18 million young people, students 
of color enrolled in public elementary and high schools in the 
U.S. I am also here on behalf of the over 1 million kids who 
choose to drop out of high school each year, often making that 
choice because they are forced to contend with ineffective 
construction, low academic standards not aligned to college and 
career readiness, and poor access to academic--to educational 
resources.
    So my remarks today are going to be focused on the kinds of 
support that high school students, particularly students of 
color and Native students, need to graduate prepared for 
college work and life.
    The reauthorization of ESEA presents a historic opportunity 
to build upon the promise and the achievements of the 2002 
reauthorization known as No Child Left Behind, while remedying 
the defects that have limited the laws affecting this in 
eliminating educational inequities.
    To be sure, NCLB was a step forward and greatly enhanced 
the potential for conditions prevent students of color to 
achieve to be removed, to be unhidden, particularly as faced by 
ethnic minorities and language minorities of low-income 
students and students with disabilities.
    As a direct result of that 2002 legislation, the discussion 
and the notion of school accountability is much more widely 
accepted, and important attention is being paid to addressing 
achievement gaps, enhancing college and career readiness, and 
strengthening high school graduation rates for all students.
    If we intend to improve America's schools, ESEA needs to be 
strengthened in many ways. For CHSE, this means expanding the 
focus on how we address the unique needs of high school 
students of color, Native students, and English-language 
learners. The pervasive and persistent inequities in our public 
education system puts students of color at a disproportionate 
disadvantage as they continue to attend highly segregated 
schools, despite the decades-old Brown v. Board ruling.
    To ensure access to equal educational opportunities and to 
reverse the graduation crisis among students of color, our 
system of education must challenge all students to meet the 
same high academic expectations. Indeed, in 2008, an American 
Council on Education report revealed that, counter to earlier 
trends, far too many of today's young Americans are realizing 
lower levels of educational attainment than in previous 
generations.
    In years past, our economy allowed high school students to 
find meaningful employment without the requirement of 
significant education and training beyond high school. Today in 
the increasingly global economy, there is a demand that 
American students are prepared to compete with students from 
around the world. Unfortunately, most of our high school 
students do not measure up to their international peers.
    It is critical, therefore, that as a society, we provide 
students with high-caliber, relevant academic coursework to 
adequately prepare them for the increasingly international 
post-high school reality of college and work.
    Students who attend colleague without having mastered basic 
skills cost our nation over $2 billion a year in remediation 
costs. Additionally, many employers today lament that high 
school graduates often do not have the skills necessary to be 
successful in the workplace.
    Clearly, we need to restore the value of the high school 
diploma. To do so, we must align state academic standards to 
college and work readiness so that our nation's graduates leave 
high school prepared to be highly skilled employees and leaders 
of tomorrow.
    At CHSE, we believe that the American education policy 
should prepare all students for this reality. And to do so, we 
believe ESEA should aim high and address critical needs of high 
school students through the following suggestions.
    Number one, make all students proficient and prepared for 
college and work. We should guarantee as a minimum threshold 
that all students have access to rigorous and engaging 
coursework in core subjects.
    Number two, hold high schools accountable for students' 
success. It is imperative that we hold high schools accountable 
for getting students successfully through to graduation by 
including meaningful graduation rates in federal school 
accountability standards.
    We should also improve data systems as a critical component 
of a strong accountability system. As we all know, making 
decisions without the benefit of fully disaggregated data 
ignores the unique needs of students of color and ill prepares 
school administrators to allocate resources based on student 
and teacher needs.
    For example, without fully disaggregated data, the needs of 
whole segments of Asian-American and Pacific Islander 
populations are often neglected and, as a result, entire groups 
of kids end up falling through the cracks.
    Number three, fundamentally redesign the American high 
school. In order to address students' diverse needs, states and 
districts must provide their schools with the means to explore 
and implement new educational models, as well as other 
effective interventions, such as literacy programs, personal 
graduation plans, and extended learning time.
    Number four, provide students with excellent leaders and 
teachers. The federal government can support programs that 
establish incentives to recruit, train, support and retain 
effective leaders and teachers in high poverty high schools.
    Number five, invest communities in students' success. The 
school environment is critical to student success, but we also 
know it is not the only factor that impacts a secondary school 
student's academic and social outcomes. Families and 
communities also play key roles.
    Number six, provide equitable learning conditions for all 
students. Persistent disparities in the allocation of key 
education resources often bar low-income and minority students 
from receiving a high-quality education, a high-quality 
education that they so richly deserve, so resources must be 
distributed equitably, used effectively, and directed where 
they are needed the most.
    I just want to say two quick things about our specific 
recommendation--or actually, three quick things about our 
recommendation. I am happy to answer questions later.
    Number one, our policy should invest in interventions that 
work. Number three, our policy should adopt effective teaching 
policy strategies and make sure they are distributed equitably. 
And number three, we should make sure that we do, in fact, 
improve data systems for all students.
    Thank you very much.
    [The statement of Mr. Wotorson follows:]

 Prepared Statement of Michael Wotorson, Executive Director, Campaign 
                         for High School Equity

    Chairman Kildee, Ranking Member Castle, and distinguished Committee 
members, thank you for inviting me to testify today.
    My name is Michael Wotorson and I serve as executive director of 
the Campaign for High School Equity, otherwise known as CHSE. CHSE is a 
coalition of leading civil rights organizations representing 
communities of color that is focused on high school education reform. 
Our goal is to advance solutions to close the achievement gap for 
students of color and Native students and to build public will and 
support among policymakers, advocates and community leaders for 
policies that will strengthen high school quality and graduation rates 
for minority and low-income students.
    CHSE partners include the National Urban League, the National 
Council of La Raza, the National Association for the Advancement of 
Colored People, the Leadership Conference on Civil Rights Education 
Fund, the Mexican American Legal Defense and Educational Fund, the 
League of United Latin American Citizens, the National Association of 
Latino Elected and Appointed Officials Educational Fund, the Alliance 
for Excellent Education, the National Indian Education Association and 
the Southeast Asia Resource Action Center.
    I am here today not only representing the nine national civil 
rights and education advocacy organizations that comprise our 
coalition. I am here to speak on behalf of the nearly 18.4 million 
students of color and Native students enrolled in public elementary and 
high schools in the United States. I am also here on behalf of the over 
1 million students who choose to drop out of our nation's high schools 
each year. CHSE believes in the very simple premise that in order to 
ensure all students unfettered and equitable access to educational 
opportunities and to arrest the high school graduation crisis among 
students of color, we must have a system of education that challenges 
and supports all students to meet the demands of a college and of the 
modern workforce.
    My remarks today therefore will be focused on the kinds of supports 
that high school students, particularly students of color and Native 
students, need to graduate prepared for college, work, and life.
Building on Past Successes
    The promise of a high-quality high school education is integral to 
our success as a nation. From meeting the president's goal of again 
leading the world in the number of college graduates, to competing in a 
global economy, to citizen participation in our democracy, education is 
a basic building block. The pending reauthorization of the Elementary 
and Secondary Education (ESEA) Act presents a historic opportunity to 
build upon the promise and achievements of the 2002 reauthorization, 
commonly known as the No Child Left Behind (NCLB) Act, while remedying 
defects that have limited the law's effectiveness in eliminating 
educational inequities.
    NCLB was a step forward. It greatly enhanced ESEA's potential to 
improve conditions for students of color, first by holding states, 
school districts, and schools accountable for the academic success of 
all students; and second, by disaggregating data for racial and ethnic 
minorities, language minorities, low-income students, and students with 
disabilities.
    The simple fact is that the 2002 reauthorization of ESEA moved us 
significantly closer to strengthening educational quality for all 
students. In short, it eliminated the ability to hide the often tragic 
conditions student so of color face in our schools and consequences of 
our collective failure to educate all of our students at a high level. 
Today as a direct result of the 2002 legislation, the critical 
importance of school accountability is widely accepted and important 
attention is being paid to addressing achievement gaps, enhancing 
college and career readiness, and strengthening high school graduation 
rates for all students. The 2002 reauthorization of ESEA effectively 
changed our national conversation about educational excellence and 
equity. We must not retreat on these gains if we are to continue making 
important progress.
    If we do intend to improve America's schools, ESEA needs to be 
strengthened in many ways. For CHSE, this means expanding the focus on 
how we address the unique needs of high school students of color, 
Native students, and English language learner (ELL) students. The 
pervasive and persistent inequities in our public education system puts 
students of color at a disproportionate disadvantage as they continue 
to attend highly segregated schools, despite the decades old Brown v. 
Board of Education ruling. For example, three out of every four of 
Latino students and 56 percent of all Asian Americans\1\ attend 
segregated schools in which minorities comprise 50 percent or more of 
the student population.\2\ Latinos and African Americans comprise 80 
percent of the student population in extreme-poverty schools where 90 
to 100 percent of the population is considered low-income.\3\ We need 
to ensure that all American students have access to equitable learning 
conditions whether they come from high or low-income neighborhoods.
    To ensure access to equal educational opportunities and reverse the 
graduation crisis among students of color, our system of education must 
challenge all students to meet the same high academic expectations. 
Indeed, a 2008 American Council on Education report revealed that 
counter to earlier trends, far too many of today's young Americans are 
realizing lower levels of educational attainment than in previous 
generations.\4\
    In years past, our economy allowed high school students to find 
meaningful employment without the requirement of significant education 
and training beyond high school. Today, the increasingly global economy 
demands that American students are prepared to compete with students 
from around the world.\5\ Unfortunately, American high school students 
do not measure up to their international peers. It is critical that as 
a society, we provide students with high caliber, relevant academic 
coursework to adequately prepare them for the increasingly 
international post-high-school reality of college and work.
    Students who attend college without having mastered basic skills 
cost our nation over $2 billion a year in remedial coursework.\6\ 
Additionally, many of today's employers lament that high school 
graduates do not have the skills necessary to be successful in the 
workplace. Clearly, we must restore the value of a high school diploma 
by increasing academic rigor. To do so, we must align state academic 
standards to college and work readiness so that as our nation's 
graduates leave high school, they are prepared to assume roles as 
America's college students, highly skilled employees, and leaders of 
tomorrow.
Policy Solutions
    CHSE believes that American education policy can prepare all 
students for college, work and life by creating an environment in which 
all children can achieve that goal regardless of race, ethnicity, or 
socioeconomic status. To do this, ESEA should aim high and address the 
critical needs of all high school students through the following 
policies:
            1. Make All Students Proficient and Prepared for College 
                    and Work
    We should guarantee that all students have access to rigorous and 
engaging coursework in core subjects. Coursework should impart the 
knowledge and skills needed to excel in postsecondary education and 
career, and assessments should measure student learning against these 
criteria. States should in turn be required to publicly report on 
access to college preparatory classes and course-taking patterns by 
income, race and ethnicity, both among and within schools.
            2. Hold High Schools Accountable for Student Success
    It is imperative that we hold high schools accountable for getting 
students successfully to graduation by including meaningful graduation 
rates in federal school accountability standards. Codifying in law the 
current graduation rate regulations would make a significant difference 
and would serve as a critical factor in determining the quality of a 
high school and it would be an effective use of resources.
    Improving data systems is another critical component of a strong 
accountability system. They will to not only improve the fairness and 
accuracy of accountability systems, including ensuring increased 
accountability for groups that are often marginalized, such as, ELLs, 
Native Americans and Southeast Asians, but will also allow schools to 
target services such as professional development where they are needed 
most.
    Additionally, making decisions without the benefit of fully 
disaggregated data ignores the unique needs of students of color and 
ill prepares school administrators to allocate resources based on 
student and teacher needs. While many states disaggregate data, 
inconsistencies in collection and reporting standards leave entire 
groups of students out of the equation. For example, without fully 
disaggregated data, the needs of whole segments of the Asian American 
and Pacific Islander population are neglected. As a result, entire 
groups of these young people end up falling through the cracks.
    We must also establish accurate and reliable assessments for ELLs. 
States have not yet implemented valid and reliable Title I or Title III 
assessments for ELLs, and the U.S. Department of Education has not yet 
provided sufficient technical assistance or guidance to the states in 
the development of appropriate assessment policies and practices. Both 
failures have severely hindered the effectiveness of NCLB for ELLs.
            3. Redesign the American High School
    In order to address students' diverse needs, states and districts 
must provide their schools with the means to explore and implement new 
educational models, as well as other effective interventions such as 
literacy programs, personal graduation plans, and extended learning 
time.
            4. Provide Students with Excellent Leaders and Teachers
    The federal government can support programs that establish 
incentives to recruit, train, support and retain effective leaders and 
teachers in high-poverty high schools. Federal education policy that 
promotes culturally based teaching, a practice wherein teachers align 
instruction to the cultural practices and experiences of their 
students, is also critical to helping all students succeed.
            5. Invest Communities in Student Success
    The school environment is critical to student success, but we also 
know it is not the only factor that impacts a secondary school 
students' academic and social outcomes. Families and communities also 
play key roles. Students in low-performing schools often do not receive 
the same exposure to outside learning opportunities as their more 
affluent counterparts. Our policy must harmonize the incentive and 
disincentive structures of the external and internal environments to 
support all students' ability to stay in school, excel academically, 
and develop into a productive individual.
            6. Provide Equitable Learning Conditions for All Students
    Persistent disparities in the allocation of key education resources 
often bar low-income and minority students from receiving the high-
quality education they deserve. Research demonstrates that, across 
states, school districts that enroll the highest percentage of students 
of color and low-income students receive fewer resources than school 
districts serving white and affluent students.\7\ Resources must be 
distributed equitably, used effectively, and directed to where they are 
needed the most.
            7. Support the State-led Common Core Standards
    The state-led effort on common standards can be a critical first 
step in reforming the American educational system. If developed and 
implemented effectively, high common standards can help to improve our 
education system with significant benefits for students of color. The 
federal government should support states when necessary, as these 
standards have the prospect to challenge all students to reach the same 
high expectations.
            8. Expand Learning Opportunities Beyond the School Day
    Often, increasing the engagement of older youth requires more than 
just time beyond the traditional school day. The innovation and 
enrichment that can take place beyond the regular school day can help 
students stay engaged in school and graduate.
    I would like to speak in more depth about a few areas of interest: 
turning around low-performing schools, student supports needed to help 
all students succeed, and effective teaching.
Turning around Low-performing Schools
    Our nation's students of color are four times more likely than non-
minority students to attend a persistently low-performing school, and 
three times less likely to attend a high school with very high 
graduation rates. In fact, dropout factories produce 81 percent of all 
Native American dropouts, 73 percent of all African American dropouts, 
and 66 percent of all Latino dropouts.
    Despite these alarming statistics, the majority of low-performing 
high schools are left out of school improvement efforts because many 
are not eligible for Title I support, the trigger for school 
improvement efforts. In fact, only 61 percent of dropout factories are 
eligible for--and, many analysts believe, even fewer actually receive--
Title I funds. Even if they do receive Title I funds, many dropout 
factories will likely not be identified as ``in need of improvement'' 
since graduation rates are not significantly factored into the 
determination of a school's success or failure. For example, 41 percent 
of dropout factories made AYP in the 2004--05 school year.\8\
    We have an opportunity right now to ensure that low-performing high 
schools benefit from attention, resources, and aggressive reform by 
making sure high schools are eligible for Title I, are held accountable 
for graduation rates in addition to academic achievement, and are 
included in school improvement calculations and intervention 
strategies.
Invest in Interventions that Work
    Creating high-performing high schools that give all students the 
support they need to succeed is no small task, and it requires changing 
the school in addition to a community investment. To truly serve the 
needs of America's diverse learners, high schools must be redesigned 
by:
    <bullet> implementing a variety of quality high school models shown 
to support different learning styles and student situations;
    <bullet> providing integrated student supports that utilize both 
in-school and community-based services (for example, high-quality high 
school counselors, graduation coaches, social workers, and health care 
and mental health services);
    <bullet> promoting strategies (such as literacy coaches or native 
language instruction) and targeted interventions (such as afterschool 
programs or block scheduling) that improve student numeracy and 
literacy skills without sacrificing access to high-level academic 
subjects;
    <bullet> promoting instructional practices designed to meet the 
needs of diverse learners such as reflexive learning and culturally 
competent learning techniques; and
    <bullet> ensuring that legally and educationally valid criteria are 
used to appropriately inform decisions regarding student eligibility 
for services in special education, services for ELLs, college 
preparatory curricula, and gifted and talented programs.
    CHSE believes that community-based organizations (CBOs) play a 
critical role in providing much-needed wrap-around services, 
particularly for students of color and Native students. The federal 
government should support the creation and expansion of multilingual 
parent centers, as well as CBO-based expanded learning opportunities 
including afterschool and summer programs, business-school partnerships 
and other community-based support services needed to help students stay 
in school and graduate.
    Throughout a reauthorized ESEA, we must remember that successful 
strategies for high school students differ from those of younger 
students. High school students are inherently more mobile, have 
competing demands on their time--including sports, clubs, jobs, and 
family responsibilities, among other differences--and therefore, 
require different strategies, activities, and supports than elementary 
and middle school students. For example, expanded learning initiatives 
and services for older students should use innovative practices and 
partners to better develop student assets by providing leadership and 
community service opportunities, work experience, academic credits and 
stipends. Policy must support and drive high-school based supports such 
as expanded learning programs.
    An evaluation of New York City programs\9\ found certain common 
elements in successful high school effort, and they differed from those 
that made elementary and middle school programs successful. They 
include:
    <bullet> the use of creative, age-appropriate strategies to recruit 
youth and encourage their continued participation;
    <bullet> the employment of staff who could relate to youth and 
staff with expertise in activity content areas;
    <bullet> activities designed to meet the developmental needs of 
older youth, for example, through the provision of career- and college-
oriented activities and leadership opportunities; and
    <bullet> partnerships to increase the fiscal and other resources 
available to the program.
Adopt Effective Teaching Policy Strategies and Distribute them 
        Equitably
    High-quality teachers are the single most important factor 
influencing student academic outcomes, including graduation.\10\ In 
fact, the presence of an effective teacher trumps almost every other 
intervention, including class size reduction, in improving student 
outcomes.\11\ Students, especially students of color and Native 
students who have traditionally been underserved by the system and are 
most likely to benefit, are not being taught by effective teachers.\12\ 
In order to address this disparity, CHSE believes that it is critical 
that all students, especially those most at risk of dropping out of 
high school, should have access to effective teachers. Next week, CHSE 
will release policy recommendations related to effective teaching. Our 
vision contemplates teacher effectiveness policies that:
    <bullet> Are based significantly on growth in academic achievement 
for all students,
    <bullet> Improve classroom instruction and leadership decision-
making,
    <bullet> Include and support high school specific solutions,
    <bullet> Ensure teachers (and school leaders) are culturally 
competent,
    <bullet> Ensure Teachers of Diverse Learners are prepared and well-
resourced; and
    <bullet> Invest in Research
    While we know that teachers are a critical determinant of how a 
student will perform academically, research shows that the students 
most likely to benefit are not being taught by effective teachers.\13\ 
Highly effective teachers are more likely to be teaching in more 
affluent schools and schools with smaller populations of students of 
color.\14\ Therefore CHSE supports teacher effectiveness policies that 
ensure that effective teachers are equitably distributed to give all 
students a fighting chance at learning.
Conclusion
    In conclusion, the last reauthorized ESEA surfaced a number of 
troubling academic disparities amongst student subgroups. Prior to 
disaggregating data for racial, ethnic, and language minorities, low-
income students, and students with disabilities, the depth of academic 
achievement gaps remained relatively hidden. While NCLB was a step in 
the right direction, clearly, there is still much to do, and we must 
not only do it right, we must do it NOW.
    The educational interests of students of color and Native students 
should be fully considered in the deliberation over ESEA. In order to 
meet the needs of these students CHSE and its partners urge Congress to 
ensure better support for high schools and strong accountability for 
improving results for high school students.
    All students--especially students of color, Native students, ELLs--
stand to benefit from a reauthorized ESEA. Waiting any longer to 
reauthorize ESEA amounts to shutting the door on thousands of American 
high school students and their dreams of a successful future. CHSE 
looks forward to continuing to work with this Committee and the full 
Congress to ensure the timely renewal of this critical civil rights 
legislation.
    Thank you, again, for the opportunity and privilege to testify 
before you today. I would be happy to answer any questions you may 
have.
                                endnotes
    \1\ Orfield, G., and C. Lee. (2005) Why segregation matters: 
Poverty and educational inequality. Cambridge, MA: The Civil Rights 
Project at Harvard University. Available at http://bsdweb.bsdvt.org/
district/EquityExcellence/Research/Why--Segreg--Matters.pdf.
    \2\ Orfield, G. and J.T. Yun, (1999) Resegregation in American 
Schools. Cambridge, MA: The Civil Rights Project at Harvard University. 
Available at http://www.civilrightsproject.ucla.edu/research/deseg/
Resegregation--American--Schools99.pdf.
    \3\ Orfield, G., and C. Lee. (2005)
    \4\ American Council on Education (2008). Minorities in Higher 
Education 2008 Twenty-third Status Report. Washington, DC: Author.
    \5\ National Center on Education and the Economy (2007). Tough 
Choices or Tough Times: The Report of the New Commission on the Skills 
of the American Workforce, Executive Summary. Accessed at 
www.skillscommission.org/pdf/exec--sum/ToughChoices--EXECSUM.pdf.
    \6\ Strong American Schools (2008). Diploma to Nowhere. Washington, 
DC: Author.
    \7\ Carey, K. (2004). The funding gap 2004: Many states still 
shortchange low-income and minority students. Washington, DC: Education 
Trust.
    \8\ Balfanz R. et al., (2007). Are NCLB's measures, incentives, and 
improvement strategies the right ones for the nation's low-performing 
high schools? American Educational Research Journal 44: 559--93.
    \9\ Russell, C. A., Vile, J.D., Reisner, E. R., et al. (2008). 
``Evaluation of the New York City Department of Youth and Community 
Development Out-of-School Time Programs for Youth Initiative: 
Implementation of Programs for High School Youth.'' New York: New York 
City Department of Youth and Community Development. Available at 
www.nyc.gov/html/dycd/downloads/pdf/ost--hsprograms--report-6-08.pdf.
    \10\ Carey, K. (2004). The real value of teachers: if good teachers 
matter, why don't we act like it? Thinking K-16, 8, 1. Available at 
http://www.calread.net/documents/summit3/articles/real--value--
teachers.pdf.
    \11\ Jerald, C., Haycock K. and A. Wilkins (2009). Fighting for 
quality and equality, too: how state policymakers can ensure the drive 
to improve teacher quality doesn't just trickle down to poor and 
minority children. Washington DC: The Education Trust. Available at 
http://www.edtrust.org/sites/edtrust.org/files/publications/files/
QualityEquity--3.pdf.
    \12\ Gordon, R., Kane, T., and D. Staiger (2006). Identifying 
effective teachers using performance on the job. Washington, DC: 
Brookings Institution Available at http://www.brookings.edu/?/media/
Files/rc/papers/2006/04education--gordon/200604hamilton--1.pdf.
    \13\ Gordon, R., Kane, T., and D. Staiger (2006). Identifying 
effective teachers using performance on the job. Washington, DC: 
Brookings Institution. Available at http://www.brookings.edu/?/media/
Files/rc/papers/2006/04education--gordon/200604hamilton--1.pdf.
    \14\ Gordon, R., Kane, T., and D. Staiger (2006).
                                 ______
                                 
    Chairman Kildee. Thank you.
    Dr. Gipp?

  STATEMENT OF DAVID GIPP, PRESIDENT, UNITED TRIBES TECHNICAL 
                         COLLEGE (UTTC)

    Mr. Gipp. Thank you, Mr. Chairman. It is an honor to be--on 
behalf of the National Congress of American Indians, the 
National Indian Education Association, and the National 
Alliance to save native languages, it is a great honor to be 
here today from Bismarck, North Dakota.
    As you indicated, I am president of United Tribes Technical 
College, where we have about 500 children, three early 
childhood centers, and a K-8 elementary school on our campus 
that represents over 70 different tribes in our student 
population.
    I would like to speak to about five major points relative 
to American Indian tribal nations and Indian education. First, 
we believe that we should strengthen tribal control in Indian 
education and in education. Tribes, like communities, are fully 
aware of what their children need.
    As future tribal leaders, tribes recognize the importance 
of providing their children with the fundamental curriculum 
that state education requires. However, they also bring a 
unique and critical perspective to the table, which includes 
the incorporation of tribal culture and languages.
    State education agencies do not understand the complexity 
of tribal beliefs and, therefore, undermine the vital role in 
our lives of our Indian children. Tribal education departments 
are formal components of our tribal governments, and they need 
to be recognized and given appropriate authority as part of the 
ESEA reauthorization.
    Second, we believe that there ought to be increased 
coordination between the Department of Education and the Bureau 
of Indian Education. About 90 percent-plus of our children are 
educated in public schools and about--the other 10 percent are 
educated within the Bureau of Indian Affairs systems or in 
tribal schools themselves. Because our students attend public, 
tribal, and BIE schools, it is critical that these education 
agencies communicate and work together.
    Third, there ought to be a focus on recruitment and 
retention of native teachers. Indian country needs more native 
teachers. Teachers that share the same cultural knowledge and 
ethnic background of their students understand their 
educational needs to a higher degree and act as community role 
models. Consequently, teacher retention is a major issue for 
us.
    Tribal colleges, the 37 that are throughout the United 
States, also have a critical role to play in teacher 
recruitment and training. United Tribes, where I am at, offers 
a 4-year elementary education degree. Graduates of this 
program, almost all Native Americans, are ready to step into 
the classroom at schools throughout Indian country.
    The Elementary and Secondary Education Act needs to include 
provisions that offer incentives for students to enter teacher 
training programs through our tribal colleges and universities.
    Fourth, the long-term investment in culturally based 
education--again, I want to highlight the importance of native 
culture and language in combination with education. What we do 
know is that the research shows and demonstrates that Indian 
children who have a better knowledge base of their culture, 
their heritage and their language also perform much better with 
respect to the other kinds of academic curriculum.
    We know that our students perform better academically when 
they have a sense of pride and self-esteem for knowing who they 
are and where they come from. This cultural foundation needs to 
be reinforced and strengthened for each of our native students. 
This kind of cultural-based education is being utilized in 
places like Montana, and it is beginning to show good results.
    We also know that native-language-based educational models 
also work to improve performance. On that, we recommend that 
the Esther Martinez Native American Language Preservation Act 
be funded more fully and that a formula base is used for those 
kinds of schools that work with immersion styles of education 
for native children.
    We would also like to emphasize the issue of tribal 
consultation, because our tribes have a treaty and federal 
Indian relationship to the United States government, as well as 
our states, a nation-to-nation relationship that is reaffirmed 
through those means that I have just mentioned and through 
President Obama's executive order in November 5, 2009, which 
requires that each agency develop a plan to implement a 
consultation and coordination with tribal government.
    In the past, the Department of Education has not adequately 
consulted with our tribal leaders. As a result, our students 
were left out of the Recovery Act's stabilization funds and the 
Department of Ed's Race to the Top Initiative.
    Finally, I would like to point out that each of our 
speakers who have testified today are representative of various 
groups throughout education. Our students cannot be 
characterized into one particular single group, because 
American Indian and Alaska native tribal nations are first and 
foremost tribal governments and have many distinct and diverse 
cultures within the 565 federally recognized Indian tribes.
    Thus, there is a political aspect that is unique to our 
educational system. We have students from rural and urban 
areas, and many have special needs, and many come from low-
income families. We also have children who attend all forms of 
schooling, public, BIE, rural and urban, and consequently our 
tribes can relate to each of these groups.
    We hope that the ESEA needs to assist tribal nations by 
giving them the tools of control they need to make through the 
various education systems consistent with each tribe's cultures 
and values. I thank you for this opportunity today, Mr. 
Chairman.
    [The statement of Mr. Gipp follows:]

  Prepared Statement of Dr. David M. Gipp, on Behalf of the National 
    Congress of American Indians and the National Indian Education 
                              Association

    Good morning, Chairman Kildee, Ranking Member Castle, and members 
of the Subcommittee. Thank you for giving me the opportunity to testify 
today. My name is David M. Gipp. My Indian name is Lone Star or Wicahpi 
Isnala, I am an enrolled citizen of the Standing Rock Sioux Tribe, and 
I am a Hunkpapa Lakota. I have served as the president of the United 
Tribes Technical College, (UTTC, sometimes referred to as United Tribes 
of North Dakota) since May, 1977. On the UTTC campus, there is a Bureau 
of Indian Education-funded elementary school, Theodore Jameson, 
educating students in K through eighth grade, which has been in 
operation for 38 years. There are three pre-K early childhood centers 
on the campus as well.
    We submit this testimony in collaboration with our sister 
organization, the National Indian Education Association (NIEA). NCAI is 
the oldest and largest American Indian organization in the United 
States. As the most representative national Indian organization, we 
serve the broad interests of tribal governments across the nation. NCAI 
was founded in 1944 in response to termination and assimilation 
policies. Since then, we have fought to preserve the treaty rights and 
sovereign status of Indian tribes and to ensure that Indian people may 
fully participate in the political system. Our partner, NIEA, was 
founded in 1969 and is committed to increasing the educational 
opportunities and resources for Indian students while protecting our 
cultural and linguistic traditions.
    NCAI, NIEA, and I strongly support the Administration's and 
Congress' efforts to reauthorize the Elementary and Secondary Education 
Act (ESEA). Perhaps nowhere in the country will the impact of this 
reauthorization be more beneficial than in Indian Country. We were 
excited to hear Secretary Duncan's testimony last week as he expressed 
the Department's desire to move towards greater flexibility and local 
control, as well as his affirmation of promoting promising practices 
and focusing on disadvantaged students.
Indian education disparities
    In comparison to their peers, American Indian and Alaska Native 
children continue to fall behind in the educational and learning 
achievements of their peers. The 2007 National Indian Education 
Study\i\ indicated that in reading and math, American Indian and Alaska 
Native students scored significantly lower than their peers in both 
fourth and eighth grades. In fact, Native students were the only 
students to show no significant progress in either subject since 2005. 
Our students also face some of the highest high school dropout rates in 
the country.\ii\ These discouraging trends need to be reversed.
    Data for Indian students is often incomplete. There are a number of 
reasons for this--including the need for oversampling, our remote 
locations, and language barriers. However, some of the comparisons with 
the non-Native population are quite disturbing (additional demographic 
and statistical information provided in Appendix A):
    <bullet> 70% of BIA-administered schools failed to satisfy No Child 
Left Behind Adequate Yearly Progress requirements in 2005.\iii\
    <bullet> American Indian and Alaska Native students were more 
likely than students of other racial and ethnic groups to receive 
services under the Individuals with Disabilities Education Act (IDEA). 
Specifically, about 12% of American Indian and Alaska Native students 
received IDEA services in 2003, compared to 8% of white, 11% of black, 
8% of Hispanic, and 4% of Asian/Pacific Islander students.\iv\
    <bullet> Only 44.6% of American Indian males and 50% of American 
Indian females graduated with a regular diploma in the 2003--04 school 
year.\v\
    <bullet> American Indians have a 15% higher chance of dropping out 
of high school then white students.\vi\
    <bullet> The National Assessment of Education Progress (NAEP) 
reports that 74% of American Indian and Alaska Native twelfth graders 
read below grade level, compared to 57 % of white twelfth graders.\vii\
    Tribal governments believe that we are well positioned to address 
many of these educational disparities. Unfortunately, tribes face many 
challenges in providing the best educational opportunities for our 
children.
    On Indian reservations, there are three types of K-12 public school 
systems: federal Bureau of Indian Affairs schools, tribal government 
schools, and local county school districts. In some Indian communities, 
all three school systems co-exist.
    The Bureau of Indian Education (BIE) is responsible for 184 
elementary and secondary schools and 27 colleges. These institutions 
are located on 63 reservations, spanning across 23 states; they educate 
approximately 60,000 students. Schools that are not directly operated 
by the BIE are run by individual federally recognized tribes with 
grants or contracts from the BIE.
    Tribal Education Departments (TED) are formal components of tribal 
governments. Over 110 federally-recognized tribes have TEDs. Their 
primary goal is to ensure that tribal students are receiving the same 
opportunities that non-tribal students receive by coordinating federal, 
state, and tribal resources for tribal students and implementing the 
goals of the NCLB Act. TEDs improve educational opportunities for 
tribal students by giving direction, advice, and assistance to local 
schools through the development of education codes and analysis of 
educational data and research. Funding for TEDs has been authorized 
through the Department of the Interior since 1988 and through the 
Department of Education since 1994; however, TEDs have never been 
funded at an appropriate level.
    Head Start Programs, particularly the Tribal Head Start and Early 
Head Start Programs are vital to Indian Country. Approximately 38% of 
all federally-recognized tribes have Head Start and/or Early Head Start 
programs, which are reaching over 23,000 Indian children; Indian Head 
Start plays a major role in educating and preparing Indian children for 
academic success. They have a proven record of enhancing academic 
readiness and self-esteem of Indian children, and provide a unique 
opportunity to enhance cultural pride and knowledge through the 
promotion of tribal values and tribal language immersion programs.
    Tribally controlled colleges and universities (TCUs) share many 
characteristics that differentiate them other secondary institutions. 
TCUs are intended to foster environments focused on American Indian and 
Alaska Native culture by creating learning opportunities that preserve, 
enhance, and promote Native language and traditions. Some TCUs function 
as community resources, providing social services to isolated and 
remote reservation areas. Currently, there are 34 TCUs. TCUs are 
essential in providing educational opportunities and environments for 
Native students to pursue advanced degrees in settings that are 
comfortable and familiar and at an affordable cost.
Indian education is a Federal responsibility
    We must be clear: specifically addressing the needs of American 
Indians and Alaska Natives within the reauthorization of the ESEA is 
not akin to providing requirements for reducing education disparities 
or considering the needs of ethnically diverse populations. While we 
may fall into those target populations as well, the significant 
difference is that providing education to American Indians and Alaska 
Natives is a federal obligation because of the unique legal status of 
Indian people. When Indian tribes ceded certain lands--lands which now 
constitute the United States--agreements were made between tribes and 
the United States government that established a ``trust'' 
responsibility for the safety and well-being of Indian peoples in 
perpetuity. In addition, a number of treaties specifically outlined the 
provision of education, nutrition, and health care. Therefore, the 
federal trust responsibility for American Indian and Alaska Native 
education must be recognized in all education policies.
    At the same time, as United States citizens, American Indians and 
Alaska Natives should have opportunities equal to those of other 
citizens to participate in the benefits of all programs and services 
offered within the reauthorization. While it may be tempting for 
Congress to dismiss tribal recommendations, due to their complex 
nature, I assure you they are needed. The Indian education system is 
invisible to most Americans, but it does, and it must, interface with 
federal and state education systems. We understand what is needed to 
assure that educational reform reaches and benefits Indian Country, and 
ask that you take the time to understand how both the federal trust 
responsibility and mainstream education can work in tandem for Indian 
people. We are committed to work with you in any way we can. To that 
end, we offer the following specific comments.
Framework for inclusion of Indian country
    Over the last few weeks, tribal leaders have spoken about the 
challenges facing our Indian education system at a number of venues--
Congressional briefing sessions, meetings with the Domestic Policy 
Council, and most recently on a call with Secretary Duncan. At each of 
these, key principles and themes have emerged, which I share with the 
Committee today. NCAI and NIEA are working with tribal leaders from 
across the nation to transform these principles into our National 
Tribal Priorities for Indian Education. We are looking forward to 
sharing the specific details with the Committee in the coming weeks.
    1) Strengthening Tribal Control in Education. Tribes are 
overwhelmingly supportive of local control over education. For Indian 
Country, this means fully recognizing the status of our tribal 
education departments (TEDs) as formal components of our tribal 
governments and affording them the same status as State Education 
Agencies (SEA) in tribal geographic territories.
    2) Increased Coordination between the Department of Education and 
the Bureau of Indian Education. Indian education must be viewed as an 
integrated system, with our students moving in and out of public, 
tribally-run, and BIE schools. As such, there must be a coordinated 
effort between the agencies that are responsible for providing Indian 
education.
    3) Focus on Recruitment and Retention of Native Teachers. There is 
no greater influence on student learning than the quality of the 
teacher. Indian schools are significantly disadvantaged in their effort 
to recruit skilled Native teachers. Uncompetitive salaries, remote 
locations, and lack of housing are but some of the challenges our 
tribal governments are facing. Tribal leaders are calling for an 
increased focus on recruiting and retaining Native educators, as well 
as providing professional development and support for teachers in 
schools with significant Native populations.
    4) Long Term Investment in Cultural Based Education. By definition, 
Cultural Based Education (CBE) is a teaching model that encourages 
quality instructional practices rooted in cultural and linguistically 
relevant context. For Native communities, this includes teaching our 
Native language, but it also means incorporating traditional cultural 
characteristics and teaching strategies that are harmonious with Native 
cultural and contemporary ways of knowing. We know that our students 
perform better academically when they have a sense of pride and self-
esteem, and CBE provides this vital foundation. We recognize however 
that there is little quantitative data to point to, so tribes are 
calling for CBE to be a identified as a promising practice in Indian 
education and for programs to be funded over a period of five years so 
we can effectively build an evidence base that conclusively 
distinguishes what works for which populations and under what 
circumstances.
Tribal consultation
    Lastly, I would like to mention the importance of tribal 
consultation. A unique Government-to-Government relationship exists 
between federally-recognized Indian tribes and the Federal Government. 
This relationship is grounded in numerous treaties, statutes, and 
executive orders as well as political, legal, moral, and ethical 
principles. This relationship is not based upon race, but rather, is 
derived the legal status of tribal governments. The Federal Government 
has enacted numerous regulations that establish and define a trust 
relationship with Indian tribes. An integral element of this 
Government-to-Government relationship is that consultation occurs with 
Indian tribes. President Obama recently re-affirmed this relationship 
with an Executive Memorandum, which requires each federal agency to 
develop a plan to implement consultation and coordination with Indian 
tribal governments as required by Executive Order 13175.
    The Department of Education (DoEd) has had little direct 
consultation--or communication--with the Tribes. They have relied 
almost exclusively on the National Advisory Council on Indian 
Education, which unfortunately was not effectively utilized over the 
years. As a result, the DoEd has neglected to take into consideration 
the impact of legislation on our tribal schools. A recent example of 
this oversight is the inability for our schools to receive much needed 
funding through the Recovery Act's Stabilization Funds or the DoEd's 
new Race to the Top initiative. Through the new EO, we are looking 
forward to a direct, productive relationship between our tribal 
governments and the Department.
Conclusion
    In closing, I would like to remind the Committee that whatever form 
the reauthorization of ESEA takes, it is important that tribal 
students, whether they attend a Bureau of Indian Education funded 
school, a state public school, or a tribally run school, are served by 
all of the ESEA programs, and must be specifically considered.
    Thank you for inviting me to speak with you today; and thank you 
for making Indian children a priority. We look forward to sharing the 
``National Tribal Priorities for Indian Education'' with the Committee 
in the following weeks. I am certain that our shared goal of improving 
the education of Indian children can be fostered through the 
reauthorization of the Elementary and Secondary Education Act.
    I will be happy to answer any questions that you may have.
                               appendix a
    education profile of american indian and alaska native students
            Demographics
    <bullet> American Indian and Alaska Native students make up 1.2% of 
public school students nationally.\viii\
    <bullet> There are approximately 644,000 American Indian and Alaska 
Native students in the U.S. K-12 system.\ix\
    <bullet> About 93% of all American Indian and Alaska Native 
students attend regular public schools and 7% attend schools 
administered by the Bureau of Indian Affairs.\x\
    <bullet> States where American Indian and Alaska Native students 
compose the largest proportions of the total student populations 
included: Alaska (27 %), Oklahoma (19 %), Montana, New Mexico, and 
South Dakota (11 % each).\xi\
            School Profiles
    <bullet> 52% of American Indian and Alaska Native students attended 
schools in the 2003--04 school year where half or fewer of the students 
were white.\xii\
    <bullet> 54% of American Indian and Alaska Native eighth graders 
attend schools where more than half of the students are eligible for 
free or reduced-price lunch.\xiii\
    <bullet> In the 2002--03 school year, the average American Indian 
and Alaska Native student attended a school where 39% of the students 
were poor, while the average white student attended a school where only 
23% were poor.\xiv\
    <bullet> 70% of BIA-administered schools failed to satisfy No Child 
Left Behind Adequate Yearly Progress requirements in 2005.\xv\
    <bullet> In public schools with high American Indian and Alaska 
Native enrollment, only 16% of teachers are American Indian and Alaska 
Native.\xvi\
            Preparedness, Graduation and Dropouts
    <bullet> The National Assessment of Educational Progress reports 
that 44% of American Indian and Alaska Native eighth graders read below 
grade level, compared to 16% of white eighth graders.\xvii\
    <bullet> The national graduation rate for American Indian high 
school students was 49.3% in the 2003--04 school year, compared to 
76.2% for white students.\xviii\
    <bullet> Only 44.6% of American Indian males and 50% of American 
Indian females graduated with a regular diploma in the 2003--04 school 
year.\xix\
    <bullet> American Indians have a 15% higher chance of dropping out 
of high school then white students.\xx\
    <bullet> American Indian and Alaska Native high school students who 
graduated in 2000 were less likely to have completed a core academic 
track than their peers from other racial/ethnic groups.\xxi\
    <bullet> NAEP reports that 74 % of American Indian and Alaska 
Native twelfth graders read below grade level, compared to 57 % of 
white twelfth graders.\xxii\
            Special and Gifted Students
    <bullet> American Indian and Alaska Native students were more 
likely than students of other racial and ethnic groups to receive 
services under the Individuals with Disabilities Education Act (IDEA). 
Specifically, about 14% of American Indian and Alaska Native students 
received IDEA services in 2006, compared to 8% of white, 11% of black, 
8% of Hispanic, and 5% of Asian/Pacific Islander students.\xxiii\
    <bullet> About 20 % of students at BIA schools receive special 
education services.\xxiv\
    <bullet> American Indian and Alaska Native students are 1.53 times 
more likely to receive special education services for specific learning 
disabilities and are 2.89 times more likely to receive such services 
for developmental delays than the combined average of all other racial 
groups.\xxv\
    <bullet> 15% of American Indian and Alaska Native eighth graders 
were categorized as students with disabilities in 2005, meaning they 
had or were in the process of receiving Individualized Education Plans, 
compared to 9% of all non--American Indian and Alaska Native eighth 
graders.\xxvi\
                                endnotes
    \i\ Freeman, C. and Fox, M. (2005). Status and trends in the 
education of American Indians and Alaska Natives. Washington, DC: 
National Center for Education Statistics, US Department of Education 
(NCES 2005-108).
    \ii\ Id.
    \iii\ U.S. Bureau of Indian Affairs. BIA Funded School Adequate 
Yearly Progress 2004--2005. http://www.oiep.bia.edu/ (accessed June 15, 
2007).
    \iv\ Freeman, C. and Fox, M. (2005). Status and trends in the 
education of American Indians and Alaska Natives. Washington, DC: 
National Center for Education Statistics, US Department of Education 
(NCES 2005-108).
    \v\ Id.
    \vi\ Freeman, C. and Fox, M. (2005). Status and trends in the 
education of American Indians and Alaska Natives. Washington, DC: 
National Center for Education Statistics, US Department of Education 
(NCES 2005-108).
    \vii\ The nation's report card: Twelfth-grade reading and 
mathematics 2008 (NCES 2009-468). Washington, DC: Government Printing 
Office.
    \viii\ Id.
    \ix\ Id.
    \x\ Id.
    \xi\ Id.
    \xii\ Orfield, G., and C. Lee. 2005. Why segregation matters: 
Poverty and educational inequality. Cambridge, MA: The Civil Rights 
Project at Harvard University.
    \xiii\ National Indian education study, Part II: The educational 
experiences of fourth and eighth-grade American Indian and Alaska 
Native students (NCES 2007-454). Washington, DC: Government Printing 
Office.
    \xiv\ Orfield, G., and C. Lee. 2005. Why segregation matters: 
Poverty and educational inequality. Cambridge, MA: The Civil Rights 
Project at Harvard University.
    \xv\ U.S. Bureau of Indian Affairs. BIA Funded School Adequate 
Yearly Progress 2004--2005. http://www.oiep.bia.edu/ (accessed June 15, 
2007).
    \xvi\ Manuelito, K. 2003. Building a native teaching force: 
Important considerations. Charleston, WV: ERIC Clearinghouse on Rural 
Education (ERIC ED482324).
    \xvii\ U.S. Department of Education, National Center for Education 
Statistics. 2008. The nation's report card: Reading 2008 (NCES 2009-
451). Washington, DC: Government Printing Office.
    \xviii\ Editorial Projects in Education [EPE]. 2007. Diplomas count 
2007: Ready for what? Preparing students for college, careers, and life 
after high school. Special issue, Education Week 26, no. 5.
    \xix\ Id.
    \xx\ Freeman, C. and Fox, M. (2005). Status and trends in the 
education of American Indians and Alaska Natives. Washington, DC: 
National Center for Education Statistics, US Department of Education 
(NCES 2005-108).
    \xxi\ Id.
    \xxii\ The nation's report card: Twelfth-grade reading and 
mathematics 2005 (NCES 2007-468). Washington, DC: Government Printing 
Office.
    \xxiii\ Freeman, C. and Fox, M. (2008). Status and trends in the 
education of American Indians and Alaska Natives. Washington, DC: 
National Center for Education Statistics, US Department of Education 
(NCES 2005-108).
    \xxiv\ U.S. General Accounting Office. 2001. BIA and DOD schools: 
Student achievement and other characteristics often differ from public 
schools' (GAO-01-934). Washington, DC: U.S. Government Printing Office.
    \xxv\ U.S. Department of Education. Office of Special Education 
Programs. 2004. Twenty-sixth annual report to Congress on the 
implementation of the Individuals with Disabilities Education Act, 
2004, Vol. 1. Washington, DC.
    \xxvi\ National Indian education study, Part II: The educational 
experiences of fourth and eighth-grade American Indian and Alaska 
Native students (NCES 2007-454). Washington, DC: Government Printing 
Office.
                                 ______
                                 
    Chairman Kildee. Thank you, Dr. Gipp.
    Ms. Diaz? Is your----

     STATEMENT OF ARELIS DIAZ, ASSISTANT SUPERINTENDENT OF 
  CURRICULUM/INSTRUCTION AND HUMAN RESOURCES, GODWIN HEIGHTS 
                         PUBLIC SCHOOLS

    Ms. Diaz. Good morning, Mr. Kildee, Ranking Member Castle, 
and Mr. Ehlers, members of the subcommittee. It is an honor to 
be here, and I appreciate your time.
    In my immigrant experience, having immigrant parents and 
being a first-generation American, I was really interested in 
working with ELL learners, and I wanted to share some of the 
successes we have had at Godwin Heights public schools with 
you, things that could be replicated easily and throughout the 
United States.
    When I started my principalship in 2000, only 50 percent of 
our students were meeting or exceeding reading and writing 
goals, 46 percent in math, and only 6 percent in social 
studies. We knew we had to do something very quickly.
    Some of the things we were able to do was analysis of data. 
This is like the GPS of education. We need to know where we are 
going with data, and data analysis provides that for us. It 
gives us that ability to do so.
    Teachers need to know how to look at data and analyze data. 
They need to be given the time to do so during the school day, 
with gaining substitutes, works very effectively.
    It needs to be done in teams by grade level, and it also 
needs to be documented. That work needs to be documented. It 
needs to go to the school improvement team, and goals need to 
be met based on the data analysis.
    The professional learning communities that we have 
implemented in our district has incorporated the sharing of 
instructional practices that work. It is really moved teachers 
from isolation to collaboration, really increasing the 
achievement in all of our groups, including the English-
language learners.
    The school improvement team goals, before you leave for a 
road trip, it is similar to checking your engine, the oil, your 
tire pressure. What it does is it lets you know that things are 
in order.
    The ideal time to do the school improvement team goals is 
really in the spring for the fall, if possible. Team members 
need to be represented by every grade level, ELL teachers, 
reading teachers. There needs to be a good representation of 
the school and the school improvement team.
    The yearly goals need to be based on the data analysis that 
takes place. They need to be measurable and specific, and we 
need to be able to incorporate that in the teacher evaluation 
process. Oftentimes, that is missing. And principals need to be 
sure to look for those school improvement team goals in the 
observations and reflect on that through the evaluation 
process.
    Parent involvement is enormous. We need to include all of 
our parents. When you are dealing with a community of diverse 
parents and they are surrounded by poverty, it does create a 
challenge for us, but they need to feel welcome, they need to 
be embraced and educated.
    One of the things that has been successful for our district 
is family and family night, reading nights, math nights, where 
we are specifically demonstrating, live demonstrations to 
parents on how they can help their students with literacy and 
skills and strategies. We also translate everything for the 
families, Spanish, Vietnamese, Bosnian, whatever language is 
represented, and we feed them. If you feed them, they will 
come. And that is a very important part. And through title 
money, we could also provide that.
    Professional developments like rolling down the window and 
getting fresh air when you are on a long road trip. 
Professional development gives teachers a fresh outlook in 
their education. It kind of eliminates the stagnant air, if you 
will. With implementation plans and expectations clearly 
outlined, professional development can make a tremendous 
difference.
    We need Title 3 funding that can provide resources for us 
to educate the teachers that are working with English-language 
learners, and it also provides activities for us for parents, 
before and after school tutoring for students, which is extra 
time and support, and programming after school for parents, as 
well.
    When you reach a destination, there is a sense of joy and 
accomplishment. Results do that for educators. When you can 
look back and see that your hard work has paid off, it makes a 
tremendous difference. I have included longitudinal data, as 
well.
    Effective teaching can close the achievement gap. There is 
absolutely no reason that we cannot do it. But when you have a 
diverse population, it is twice as hard to do so, and we would 
like you to acknowledge that.
    We understand and welcome accountability, but there are 
modifications that are necessary, and I have included a couple 
of recommendations in my proposal. Thank you.
    [The statement of Ms. Diaz follows:]

   Prepared Statement of Arelis E. Diaz, Assistant Superintendent of 
   Curriculum/Instruction and Human Resources, Godwin Heights Public 
                          Schools, Wyoming, MI

    Good morning. Chairman Kildee, Ranking Member Castle, Mr. Ehlers, 
and members of the subcommittee thank you for this opportunity to speak 
to you today. I am Arelis Diaz, Assistant Superintendent of Curriculum/
Instruction and Human Resources in Godwin Heights Public Schools 
District located in Wyoming, Michigan. This work is quite dear to me 
since I am a first generation American with hard working parents from 
the Dominican Republic. I was raised in Puerto Rico and returned to the 
states during my third grade year. My immigrant experience gave me a 
desire to train for and teach diverse English Language Learners. I was 
privileged to teach ELL students for 5 years, lead teachers primarily 
as a principal for 5 years, and most recently have led instruction for 
the district as a central office administrator for the last 5 years. I 
am honored to share some of the work we have been successful with at 
Godwin Heights over the past 10 years to improve instructional 
practices and achieve positive academic gains in addressing the needs 
of diverse students.
Background of Godwin Heights Public School District
    Godwin Heights is an urban district located on the border of Grand 
Rapids. We have experienced a great deal of diversity growth in the 
past two decades. In 1995, I had 36 students in my English Language 
Learners class whose native language was other than English. Fifteen 
years later, although our students' prominent first language is still 
Spanish, that same school has 155 ELL students who come from 16 
different countries. The changes in poverty are similar. In 1995, 
Godwin's community was comprised primarily of strong manufacturing 
employees working at GM and Steelcase plants. Today, the GM plant has 
closed and Steelcase is a skeleton of the healthy and hearty company it 
used to be. As a result, 84% of our students now qualify for free and 
reduced lunch.
    Godwin Heights Public School District serves 2,212 students at our 
3 elementary schools, one middle school, one high school, and one 
alternative high school. All of our schools qualify for and receive 
Title I Program funding. We also provide ELL and Special Education 
services at all of the schools.
Changes in instructional practice--as principal
    When I became principal of North Godwin Elementary School in 2000, 
only 50% of our students were meeting or exceeding Michigan's Reading 
and Writing expectation. Only 46% of our students satisfactorily passed 
the Math assessment. Our Social Studies results were even worse--with 
only 6% of our students meeting or exceeding expectations. Why were 
some students making progress and others not? We had to face our brutal 
facts--quickly!
    I knew that facing our brutal facts meant looking at our data to 
truly discover who was learning, what they were learning, when (what 
grade level) they were learning it, how were we vertically aligning the 
curriculum, and most importantly, why were some students not learning. 
My mantra became ``we will do whatever it takes'' to effectively 
educate all of our students! During my tenure as building principal, I 
continuously focused on the following 5 principles:
    <bullet> Give teachers time to analyze past and present data
    <bullet> Develop specific and measurable School Improvement Team 
goals (from data analysis)
    <bullet> Create a positive, efficacy-based culture--``If you 
believe it, you will see it. If you don't, you won't.''
    <bullet> Develop a continuous learning environment with book 
studies and collaboration
    <bullet> Parent Involvement--embracing and educating them
            Analyze past and present data:
    Teachers need to be given time to be intentional about looking and 
analyzing data. I was surprised to discover that most needed to be 
taught how to analyze data. I found that teachers could not/should not 
be expected to do this most important work on their own time. 
Administrators needed to give them time and support. Providing this 
time during the school day, by obtaining substitutes for their 
classroom, works best in my experience. This process must be done in 
teams, by grade levels and include the ELL and Special Education 
educators with the administrator for optimum results. The findings must 
be documented and shared with the School Improvement Team, then finally 
with the rest of the staff members. Ownership of the achievement must 
be embraced by every staff member in the building including custodians, 
food service and paraprofessionals.
    As I studied our data and compared it to our programming, there was 
a glaring observation. Many more students needed more time and support 
with literacy than we were providing. We were servicing a limited 
number of students with Reading Recovery. Many more needed services. I 
concluded that it was time for a literacy revolution!
    The reading teacher and I made an executive decision to modify the 
reading program to maximize the number of students that could be 
serviced. We initiated our own program which we named the Backpack 
Reader program and utilized the reading staff as a team that in 
addition to the classroom teacher would go into every K-2nd grade 
classroom daily. Every day students chose an appropriate level book to 
read with a team member. During that time, the team provided mini 
lessons and reading strategies. The student took the book home to read, 
and a parent/guardian signed daily when they read with the student. The 
book is brought back to school and read with a team member for the 
third time. The students progress up in levels until they are reading 
independently and can check out books on their own from the library. 
The Backpack Reader program produced amazing results and increased 
reading growth such that every first grader was reading at grade level 
by the end of the year, including ELL and Special Education students.
            School Improvement Team Goals:
    The data analysis findings from each grade level must be presented 
to the School Improvement Team (SIT). Since each team includes one 
teacher representative from each grade level, an ELL teacher, a Special 
Education teacher, an elective teacher representative and the Reading 
teacher (if applicable), the analysis of the data is comprehensive. The 
key to the success of this team is that the entire school is 
represented and is part of the decision making process for the yearly 
goals. This ensures that special populations are addressed.
    The SIT then develops the yearly goals based on the data analysis. 
Each goal has to be specific to every grade level and measurable by 
marking period. For example, once we realized graphing skills were a 
deficiency throughout our student population, we set a goal that every 
grade level would include one graphing activity per marking period. We 
were specific: 1st marking period would be a Social Studies graphing 
activity, 2nd marking period would include a graph from the science 
content, 3rd marking period from Language Arts and 4th from Math. 
Integration of the subject areas was important and based on research, 
for higher level learning and retention.
    I then incorporated the SIT goals into my teacher evaluations. 
During observations, I requested each teacher conduct a lesson that 
easily identified and emphasized a SIT goal. This included ELL and 
Special Education classrooms.
            Create positive culture:
    This is an area that is underestimated in schools. However, every 
highly effective school that has overcome diverse challenges 
understands that it is essential to believe that all students can learn 
regardless of their individual needs.
    During my principalship, I was intentional about creating a 
positive culture. I implemented the FISH philosophy that focused on 
being there for one another as staff members. That also included 
supporting teachers when their student's demonstrated unacceptable 
student behavior and following through with consistent corrective 
discipline. Increasing and maintaining student achievement is hard 
work. Teachers need to feel safe, empowered and appreciated. 
Remembering birthdays with treats, sending Thanksgiving letters to 
family members and notes of acknowledgement in mailboxes all helped in 
establishing a positive climate.
            Continuous Learning Environment:
    It is enlightening to realize that most veteran teachers with 
continuing certificates have not returned or taken a college credit 
class since they graduated from college. The best way to learn new 
strategies and be inspired by others is to read and study from them. I 
introduced the staff to book studies, both at staff meetings and 
afterschool. I read a chapter of The Essential 55 by Ron Clark to my 
staff at every meeting and then we implemented its strategies for 
diverse communities. They worked! Afterschool, we read There Are No 
Shortcuts by Raffe Esquith, a teacher from inner city Los Angeles. The 
success of his ELL students motivated us to go above and beyond.
    Finally, I modified the schedule to provide each grade level common 
collaboration time during the day. There was some resistance at the 
beginning because traditionally teachers had always worked in isolation 
as individual experts. However, as they started sharing activities, 
lessons and strategies, that worked slowly. The collaborative teams 
realized they each had individual natural strengths and weaknesses, 
that they could help one another, primarily in the area of ELA/SS and 
Math/Science. Then, vertical alignment started taking shape. As the 
teams discussed gaps in learning, they realized they needed to talk 
with the grade levels above and below them. Finally, they sought out 
all of their resources, including the ELL and Special Education 
teachers for assistance.
            Parent Involvement:
    When parents are surrounded with poverty, it complicates things for 
educators. Our parents are working two and three jobs. When they are 
sleeping, their children are in school. When they are awake and 
working, their children are at home. And many do not know or understand 
the English language. Parents need to feel welcomed into our school 
environment and need to be educated on the importance of being involved 
as a part of the school.
    We initiated Family Reading and Math Nights where we demonstrated 
strategies that parents could easily implement at home with commonly 
used products. For example, we showed them that shaving cream is a 
fantastic way to learn spelling or sight words. We translated 
everything and we provided dinner every time because if you feed them, 
they will come!
    Remember the Backpack Reader program? This is a perfect example of 
how we had to educate our parents. When we initiated this program, we 
had very little support from the parents. They were not reading with 
their children, not signing that they read with their children, and 
failing to return the books. Instead of stopping the program, we 
educated the parents instead by incorporating the importance of reading 
into every opportunity we had: classroom newsletters, building-wide 
newsletters, PTO meeting presentations, family nights, drop off and 
pick up time, at breakfast, etc. It worked so well that by the end of 
the year, the parents were calling us if the book was not in the 
backpack!
    The results? In 2005, when I left North Godwin for the Central 
Office our achievement was simply outstanding. We were recognized as a 
Top Performing School by the Just for the Kids Foundation. Our 
students, including ELL and Special Education students, were and still 
are, outperforming similar students throughout the state. 85% of 
students met or exceeded state reading standards and 87% met or 
exceeded state writing standards in 4th grade (compared to 50% in 
2000). 75% of students met or exceeded state Social Studies standards 
in 5th grade (compared to 6% in 2000).
Changes in instructional practice--as assistant superintendent
    In 2005, I packed the lessons I had learned from being a principal 
brought them to the Central Office.
            Analyze past and present data:
    I instituted district-wide early release once a month where 
students are dismissed at 1:30 p.m. and teachers stay until 4:15 p.m. 
for collaboration. It allows all teachers, including Special Education 
and ELL teachers to collaborate not just as a building, but as a 
district and we can align the curriculum vertically as well. The 
Professional Learning Communities (PLC) philosophy and practice has 
dramatically changed the way our educators teach and virtually 
eliminated the teaching in isolation practices. Teachers are sharing 
what works and modifying their instruction based on their discussions 
with one another, and most importantly they are incorporating the SIT 
goals. The result? Increased achievement for all students including 
diverse subgroups.
            School Improvement Team Goals:
    At the district level, the school improvement team goals have to be 
woven with the Board of Education goals. Our board has consistently 
focused on improved reading goals. As the new curriculum leader for the 
district, I knew what worked from my work at the building level. We had 
to implement successful programs such as the Backpack Reader and 
Accelerated Reader district wide at all three elementary buildings. We 
provided training for all teachers and set minimum usage expectations 
per grade level. On a weekly basis, I check the Accelerated Reader 
Dashboard for individual teacher participation and success index (how 
well the students performed on their reading quizzes) for all K-8 
classrooms. Additionally, we incorporated another software component 
specifically for ELL students that focuses on vocabulary building 
called English in a Flash. The results have been increased reading 
scores on the MEAP state assessment district wide for all students, 
including our diverse subgroups.
            Continuous Learning Environment:
    Most recently, we have incorporated the Response to Intervention 
(RtI) program in all of our schools. It has proven to be extremely 
successful due to the daily intense, targeted lessons and the progress 
monitoring built into the program. It has allowed us to identify the 
foundational skills necessary for long term proficient readers. Prior 
to RtI, our reading revolution produced good readers, but we noticed 
that we saw a drop in third grade reading skills. We now realize, 
thanks to RtI, that we were missing some steps in the continuum 
critical to long term reading success. At any point in the school year, 
we know exactly where all of our students are on the reading continuum. 
As a result, we have seen a decrease in Special Education referrals.
    When we analyzed our data, our ELL students needed more time and 
support. District wide, we implemented before and/or afterschool 
tutoring for our ELL students this school year, utilizing Title III 
Immigrant Funds. We are focusing on targeted areas where they are not 
meeting expectations in their content areas. Classroom teachers re-
teach lessons not mastered utilizing a variety of differentiation 
strategies to master the content. The teachers have already provided 
feedback that confirms the extra time and support is working. Pre and 
post assessments prove that the students are obtaining mastery on a 
weekly basis, simply by receiving more time and support.
    Teachers and administrators also need time and support to maximize 
their effectiveness. Although as a novice administrator, I sent 
teachers to conferences and workshops as they requested, now I send 
only teams of new teachers to a conference each year. The remainder of 
our professional development practice involves:
    1. Training all teachers (including ELL and Special Education 
staff) at the same time
    2. During the school day
    3. Based on needs from data analysis
    4. With an implementation plan and clear expectations articulated 
and
    5. With follow up training throughout the school year(s).
    During the past several years our district's professional 
development has focused on writing and literacy. We have discovered 
that teachers working with consultants that come to our district for 
building wide or district wide training is very effective; much more 
effective than the singleton conference approach. For our 
administrators, the professional development has focused on 
instructional leadership versus management utilizing Marzano's 
research. We emphasized that leadership is not about us as 
administrators, but rather about empowering others.
            Results, Reflections, and Recommendations:
    I have attached our MEAP state assessment results from 2005 to the 
present. Longitudinally, you will see that we have made significant 
gains. Keep in mind that the growth has occurred during financially 
troubling times of yearly budget cuts, yearly increases to our free and 
reduced lunch counts, and a growing ELL population. This type of 
achievement is not easy when you consider the expanding challenges 
facing our district every year. However, what I have tried to explain 
to you is that effective teaching can close the achievement gap in any 
diverse group!
    Now that I have made it perfectly clear that it can be done, allow 
me to identify some recommendations that would assist us in the field 
to continue to make it happen. Understanding that life is not fair, 
please, please, please acknowledge the fact that districts with diverse 
populations must work twice as hard to produce the results that are 
expected. Consider for a moment a fourth grade teacher that welcomes 
several new refugee or immigrant students into their classroom at the 
beginning of the year. Even though the new students have no prior 
knowledge of the English language, the teacher goes above or beyond to 
teach the students on a daily basis. The school provides ELL, RtI Tier 
1, 2 and 3 services, Backpack Reader, Accelerated Reader, Accelerated 
Math, English in a Flash, before, lunch and after school tutoring. The 
students make miraculous gains of 2 to 3 year gains * * * but they are 
still at a second or third grade level! We understand and welcome 
accountability, but modifications are necessary to acknowledge of 
schools and students working hard to close the achievement gap.
    As I have a special place in my heart for English Language Learners 
(ELL), allow me to make three final recommendations for this 
population:
    <bullet> Permit states to include growth in their accountability 
systems, rewarding districts and schools who are making progress. This 
is an important tool for measuring the success of English Language 
Learners.
    <bullet> Increase resources for the Title III program to help 
states and school districts provide English language instruction 
programs for English Language Learners and provide more professional 
development for the teachers working with these diverse learners.
    Thank you for the opportunity to share some of the successes we 
have enjoyed at Godwin Heights Public Schools. It is indeed a tribute 
to all of the hard work and dedication of our excellent teaching and 
staff members. You may contact me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e4808d859ea4838b80938d8a97878c8b8b8897ca8b9683">[email&#160;protected]</a> with any 
further questions.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Dr. Kearns?

      STATEMENT OF JACQUI FARMER KEARNS, ED.D., PRINCIPAL 
       INVESTIGATOR, NATIONAL ALTERNATE ASSESSMENT CENTER

    Ms. Kearns. Thank you, Chairman Kildee, Ranking Member 
Castle, and all the members of the subcommittee for inviting me 
to testify this morning.
    I am here today to discuss the importance of including all 
students with disabilities fully and equitably in assessment 
and accountability systems. I am fortunate to work in 
collateral with nationally recognized experts in education, 
measurement and curriculum to regularly review and discuss the 
research in this area.
    Currently, students with disabilities participate in 
accountability systems in one of four ways: general assessment; 
general assessments with accommodations; alternate assessments 
on modified achievement standards in a few states, the 2 
percent test; and alternate assessments on alternate 
achievement standards, the 1 percent test.
    Eighty-five percent of students identified under the IDEA 
do not have intellectual disabilities that should prevent them 
from achieving at grade level. They should participate in 
general assessments with or without accommodations.
    A number of states have conducted an analysis of their 
general assessment data by identifying learners who are 
persistently low performing. Over and over again, states have 
been surprised to find that this group includes both students 
with and without disabilities. These students are more likely 
to be male, represent a minority, economically disadvantaged 
students, or have a disability.
    Unfortunately, many students represent all these 
characteristics. There is a chart representing these data in my 
written testimony.
    Teachers at schools that have successfully closed the 
achievement gap for these students include the following: 
alignment of curricula with state standards, inclusion of 
students with disabilities in general education classes with 
appropriate support, and use of student assessment data to 
inform decision-making.
    For the purposes of system accountability, we absolutely 
need to know where every student is in relation to the 
standards of their enrolled grade on a summit of assessment. 
For other purposes, including diagnostic and instructional 
planning on interim, benchmark or formative basis, we may find 
other tests helpful, but care has to be taken not to lower the 
expectations or academic targets.
    It is true that some students with disabilities who are 
among the students who can attain grade-level achievement are 
most challenging to assess. This group includes children with 
hearing and vision disabilities, but also some students with 
learning disabilities and intellectual disabilities.
    Consider Lizzie, a young lady with a severe learning 
disability. She comprehends on grade level, but needs 
accommodations to demonstrate her knowledge, yet accommodations 
for reading are not allowed for the test in her state. None of 
the current state assessment options can produce a valid set of 
results to accurately represent her achievement level.
    Consider Megan, a student with Down syndrome, an 
intellectual disability. Because Megan had access to high-
quality instruction, individualized support and services, and 
the opportunity to learn from the general curriculum, she 
graduated from high school with a standard diploma in a state 
with high standards and is attending college.
    Career and college-ready achievement is well within the 
reach for students like Megan. Our obligation is to ensure that 
she and others like her are prepared to reach these goals. ESEA 
should continue to ensure that schools are accountable for the 
academic achievement and graduation rates of all students, 
including students with intellectual disabilities.
    Other students with intellectual disabilities participate 
in alternate assessments on alternate achievement standards. 
This is the 1 percent test. It may surprise you to learn that 
the largest group of these students with the most significant 
cognitive disabilities, about 70 percent, can communicate, read 
sight words, and solve math problems with a calculator. I have 
included a chart representing these data in my written 
testimony before you.
    Consider Bruce. Bruce is a student with significant 
disabilities. Bruce is not provided with assistive technology 
to communicate until late in high school. In the video clip, 
you will see that Bruce is answering questions about predicted 
and actual temperature within days of receiving his device.
    [Begin video.]
    Voice. Let's look at October 20th. Were the forecasted and 
actual temperatures high, low or about the same?
    Voice. The forecasted and the actual temperatures were the 
same.
    Voice. Very good. Now, look at these forecasted 
temperatures. Okay? Looking at them? How many days was the 
forecasted temperature higher than the actual temperature?
    [End video.]
    Ms. Kearns. Low expectations and segregation have denied 
Bruce access to the general curriculum. Sadly, he will exit 
this school this year without a high school diploma, greatly 
limiting the opportunities available to him. Bruce's story 
illustrates a classic example of the failure of the IEP team 
and why access to the general curriculum is so important.
    We continue to hold schools accountable for all these 
students. The challenge of high expectations is being met in 
many places with leadership and hard work. In large part 
because federal law has required transparency and 
accountability for all students, children with disabilities are 
showing us what they know and can do, often exceeding our 
expectations. We must continue to hold schools accountable for 
the education of all students. Their futures depend on it.
    Thank you.
    [The statement of Ms. Kearns follows:]

     Prepared Statement of Jacqui Farmer Kearns, Ed.D., Principal 
Investigator, National Alternate Assessment Center, U.S. Department of 
                               Education

    Thank you Chairman Kildee, Ranking Member Castle and all the 
Members of the Subcommittee for inviting me to testify this morning
    I am currently the Principal Investigator for the US Department of 
Education Office of Special Education Programs funded National 
Alternate Assessment Center (NAAC), a research center on alternate 
assessments, and a General Supervision Enhancement Grant assisting five 
states in developing validity evaluations for their alternate 
assessments on alternate achievement standards at the University of 
Kentucky. I have completed three other federal research initiatives 
about alternate assessment and universally designed, technology-based 
general assessments. In the early 1990's, I played a key role in the 
design and implementation of the first alternate assessment used in an 
accountability system during Kentucky's Education Reform Act (KERA). 
When the IDEA was reauthorized in 1997 and included the provision for 
alternate assessment, I assisted a number of states in the design, 
implementation, and evaluation of alternate assessments as Associate 
Director of a university-based assessment design group at the 
University of Kentucky. I have authored and co-authored research 
publications including the first text on alternate assessment and, more 
recently, a new text on alternate assessment and standards-based 
instruction. I have extensive experience in providing professional 
development support to teachers serving students with significant 
cognitive disabilities and to principals regarding the implementation 
of inclusive education and access to the general curriculum. I am a 
third generation educator, with 9 years of direct classroom experience 
teaching students with significant cognitive disabilities. Finally, I 
am the parent of a child recently diagnosed with Attention Deficit 
Hyperactivity Disorder, who received services through Response to 
Intervention (RTI) through his second grade year and has been referred 
for evaluation under the IDEA. However, in my testimony this morning, I 
am representing myself, and not the University of Kentucky or the 
multiple projects on which I work.
    Today's Focus. I am here today to discuss the importance of 
including ALL students with disabilities fully and equitably in 
assessment and accountability systems. These systems must include 
challenging content standards, progress and proficiency measures, 
participation, and data reporting. To do otherwise, places the entire 
population at risk for a variety of serious consequences as they leave 
school unprepared for the educated world that waits them. I have 
brought with me some students whose stories will help us understand the 
complexities of the issues that face us. I will describe the challenges 
and possible solutions for students with disabilities who are 
``persistently low performers'' and lessons learned from schools who 
have successfully closed the achievement gap. Next, I will introduce 
Lizzie, a student with a learning disability. Lizzie teaches us the 
importance of designing solutions for assessments that accommodate the 
widest array of possible users, so students can show what they know and 
can do. Megan reminds us that high expectations can result in students 
who can and o exceed our expectations. Finally, Bruce a student in an 
alternate assessment teaches us that IEP teams can't do it by 
themselves. My area of expertise is alternate assessments and students 
like Bruce. I am fortunate to work in collaboration in collaboration 
with national special education, measurement, and curriculum experts.
How Do Students with Disabilities Participate in Accountability?
    Currently, students with disabilities participate in the 
accountability system in one of four ways: 1) general assessments, 2) 
general assessments with accommodations, 3) alternate assessments on 
modified achievement standards, and 4) alternate assessments on 
alternate achievement standards. Eighty-five percent (85%) of students 
identified under the IDEA do not have intellectual disabilities that 
should prevent them from achieving at grade level. This includes 
students with learning disabilities, who comprise nearly half of the 
IDEA population, as well as students with physical disabilities, vision 
and hearing impairments, emotional and behavioral disabilities, and 
even some students with mild cognitive impairments.
    Persistently Low Performing. A number of states considering the 2% 
flexibility have conducted an analysis of their general assessment data 
by identifying learners who are ``persistently low performing'' (Gong, 
Marion, & Simpson, 2006). Over and over again, states have been 
surprised to find that this group of persistently low performers 
includes BOTH students with and without disabilities. Furthermore, 
these students are disproportionately representative of males, 
minorities and disadvantaged as identified by Free and Reduced lunch, 
as well as students with disabilities (Lazarus, Wu, C., Altman, & 
Thurlow, 2010). Researchers from the National Center on Educational 
Outcomes presented the data from five states considering these 
students. The charts in Figure 1 illustrate these data.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the layers of the data unfold, researchers have discovered that 
many of these students have not had access to high quality curriculum 
or instruction. Meanwhile, schools across the nation ARE CLOSING THE 
ACHIEVEMENT GAP for historically low-performing students with and 
without disabilities--through leadership and hard work to improve their 
educational opportunities. From these data, and similar data from other 
investigations it is clear that providing accountability ``relief'' to 
schools for these students with disabilities while other schools can 
and do help these students achieve is unwarranted and counterproductive 
for inclusive accountability policy.
    Studies of Low Performing Students. States have studied the extent 
which students with disabilities are low performing students, in an 
effort to design alternate assessments based upon modified achievement 
standards for the 2% flexibility that is currently allowed under the 
ESEA regulations (Fincher, 2007; HB Study Group from Colorado, 2005; 
Marion, Gong, & Simpson, 2006; New England Compact, 2007). Researchers 
at the National Center for the Improvement of Educational Assessment 
(NCIEA) conducted one the first of these investigations. These 
researchers found that the scores of students with disabilities were 
distributed all across the scaled scores, as are the students without 
disabilities. (Marion, Gong, & Simpson, 2006). This study foreshadowed 
results of studies in multiple states: the lowest performing students 
on state assessments under NCLB are not only, or even primarily, 
students with disabilities. Perie (2009) summarized data mining 
approaches in Georgia and South Carolina. Georgia mined data from three 
years of the state test, identifying persistent low performers in 
grades 5 and 8 as students scoring in the lowest of three achievement 
levels. South Carolina looked at grades 4 and 7, identifying students 
with two years of data scoring in the lowest of four achievement 
levels. In both states, the percentage of students with disabilities 
represented 39% to 55% of all students in the lowest achievement 
levels, adjusting for variations in test cut scores.
    Closing the Achievement Gap. Current accountability definitions 
require that schools ensure that students with disabilities achieve 
proficiency through access to the same challenging curriculum as their 
peers. Schools that are succeeding have recognized the importance of 
integrating the content standards into a challenging curriculum for all 
students, and providing access to students with disabilities through 
individualized and appropriate services, supports, and accommodations 
identified by the Individualized Education Program team so that each 
student can be successful.
    Special education as typically practiced in this country has 
questionable effectiveness. Access to the general curriculum at grade 
level is an essential component of accountability that cannot be 
understated. A new study by Morgan, Frisco, Farkas, and Hibel (2010) 
found that students who were identified for special education services 
had significantly lower reading achievement after receiving those 
services from 2002-2004 than their peers with similar learning and 
demographic characteristics who did not receive special education 
services. The National Association of School Psychologists (2002) has 
found that labeling of students tends to result in lowered 
expectations, fewer typical peer relationships, and a lack of 
curriculum integrity.
    We have examples of how system accountability the past decade has 
resulted in significant reductions of the achievement gap between 
students with and without disabilities in schools where special 
education practice has changed. An Association of Curriculum 
Development Association (ASCD) longitudinal study of schools in Rhode 
Island found that 100 of the 320 schools had show a dramatic closing of 
the achievement gap by students with disabilities (Hawkins, 2007). The 
2004 Donahue Institute study and the 2009 Ohio Follow up Study on 
Students with Disabilities had similar findings. Indeed, closing the 
achievement gap between children with and without disabilities is an 
articulated goal in schools across the country, although some school 
leaders continue to resist taking responsibility for these students. 
Features of these schools that have successfully closed the achievement 
gap include the following: 1) alignment of curricula with the state 
standards, 2) inclusion of students with disabilities in general 
education classes with appropriate supports, 3) use of student 
assessment data to inform decision-making, 4) disciplined social 
environment, and 5) strong leadership teams (Hawkins, 2007; Pritchard 
Committee, 2005).
    It is important to note that schools that have achieved the goal of 
closing the achievement gap for their sub-groups including those with 
disabilities have done so in part by changing the way they think about 
the children who challenge our educational system. They did not seek 
``relief'' from accountability or lower their expectations for student 
achievement.
    Students Who are Challenging to Assess. Some students with 
disabilities who are among the students who can attain the grade-level 
achievement are challenging to assess. This group includes children 
with hearing and vision disabilities, but also some students with 
learning disabilities.
    <bullet> Consider Lizzie. Lizzie is a middle school student who has 
a severe learning disability that affects her ability to read. Despite 
intensive efforts to improve her reading, her conventional reading 
skills are still well below grade-level achievement. However, her 
comprehension of oral text is well within grade-level achievement and 
will be a strength on which she builds toward college and career 
readiness for a lifetime. Accommodations for reading are not allowed 
for the test in her state. Test day is extremely frustrating for Lizzie 
and her teachers. Providing an out-of-level grade assessment which 
measures conventional reading but does not measure comprehension 
commensurate with her grade will NOT provide an accurate assessment of 
her performance. The resulting data will not encourage her teachers to 
build the skills she needs for her future.
    Assessment Options. As the description of Lizzie illustrates, none 
of the current state assessment options would have produced a valid set 
of results to accurately represent her achievement level. The State has 
not provided adequate accommodations policy to meet her needs. An out 
of level assessment, or even a self-leveling assessment, would not 
appropriately demonstrate her performance.
    For a variety of reasons, a one-size-fits-all approach will likely 
never have the precision to assess the widest array of possible 
students. For the purposes of SYSTEM accountability we absolutely need 
to know where students are in relation to the standards at their 
enrolled grade on a summative assessment. For OTHER purposes, including 
diagnostic and instructional planning on an interim, benchmark or 
formative basis, we may find other tests helpful, but care has to be 
taken to avoid lowering expectations and academic targets.
    Use of Accommodations. The research on the use of accommodations 
during assessment is increasingly more sophisticated and refined 
(Thompson, Morse, Sharp, & Hall, 2005). The use of accommodations 
during assessments should be built on the foundational assumption that 
students with disabilities must be expected to demonstrate achievement 
in the same content as other students and thus the content targets 
should not be changed by the accommodations, accommodations used in 
assessment should also be used during instructional assessment as a 
matter of practice, and that accommodations decisions are specific to 
individual students. Accommodations should be used consistently and the 
use of them and the need for them evaluated regularly. Ultimately, the 
use of an accommodation should not prevent the student from mastering 
the content or limit the student's pathway to learning future content 
(Thompson, Morse, Sharp, & Hall, 2005). Finally, deep understanding of 
the content is essential for making appropriate accommodations 
decisions.
    Growth Model Designs. We often hear teachers comment ``he has grown 
so much over the year'' and the assumption is to measure that growth 
for these populations. No doubt the teacher's observations are 
reliable, but the assumptions about using a ``growth model'' design to 
measure this must consider the variety of pathway that defines progress 
across the widest array of student users. Growth model designs are 
based on the theoretical assumptions of norm referenced assessments. 
Most students with disabilities were not included in normative samples 
(Hill, Gong, Marion, DePasquale, Dunn, & Simpson, 2005). An accurate 
description of the pathway to academic competence is an essential 
component of ``growth model'' assessment designs (Betebenner, 2005; 
Hill, Gong, Marion, DePasquale, Dunn & Simpson 2005). This is because 
for most students with disabilities like those described today, 
something is missing from the pathway that we need to understand in 
order to build a fully valid growth model assessment. In many states, 
research suggests that this missing piece is effective instruction and 
access to the curriculum. Still, we know that we do NOT know all we 
should about how to ensure students like Lizzie can first learn and 
then show what they have learned on state tests. This is also true for 
students with significant cognitive disabilities in AA-AAS who take 
alternate assessments on alternate achievement standards where less 
evidence to support the curricular pathway exists.
    Career and College Ready. According to the National Transition 
Technical Assistance Center data, the predictors of post secondary 
education for students with disabilities depends to a large extent on 
the following factors: 1) participation in the academic curriculum, 2) 
performance in reading, writing, and math, 3) placement in general 
education 4) high school diploma (Baer, 2002; Raybren, 2005). As would 
be expected, similar factors are predictors of post school employment.
    Intellectual Disabilities. Of the students with disabilities who DO 
have intellectual disabilities, some CAN achieve grade-level 
proficiency when given high quality instruction, individualized 
supports and services, and the opportunity to learn.
    <bullet> Consider Megan. Megan graduated from high school with a 
standard diploma and is attending college. She has a disability 
commonly known as Down syndrome which is a chromosomal condition that 
typically but not always results in an intellectual disability.
    If you are tempted to suggest that the standards for attaining a 
high school diploma must be low in her state, I assure you that the 
current graduation and drop-out rates in her state do not support that 
claim. The purpose of this example, is to challenge our understanding 
and beliefs about what students with intellectual disabilities given 
the right supports and expectations for achievement
    Students with the Most Significant Cognitive Disabilities. The 
students with intellectual disabilities, who participate in alternate 
assessments on alternate achievement standards, represent at least two 
distinct groups of learners. We know that 70% of students participating 
in alternate assessments on alternate achievement standards can 
communicate, read basic sight words, and solve math problems with a 
calculator (Towles-Reeves, Kleinert, Kleinert, Thomas, in press) often 
beginning in elementary school.
    figure 2: reading and math characteristics of students in aa-aas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The remaining 30% of this 1% of students in the AA-AAS do not use 
oral speech to communicate or in some rare cases respond 
inconsistently. Furthermore, more than half do not have augmentative 
communication systems. Of all the groups, we agree that this group is 
the most challenging to assess. However, vigilance is warranted because 
many students in this group have not received the services they need to 
communicate. This misidentification and failure of service is tragic 
but sadly not uncommon.
    <bullet> Consider Bruce. Bruce a high school student who has 
cerebral palsy who does not use oral speech. His IEP team determined 
that he had an intellectual disability. He was dropped from speech/
language therapy as a related service due to ``failure to make progress 
in using oral speech''. He received educational services in a 
segregated class for students with significant intellectual 
disabilities with limited to no access to the general curriculum. A new 
teacher recognized that Bruce had not been appropriately identified or 
served, and requested the assistance of speech/language external to the 
school and district. As a result, Bruce received a touch screen 
computer with voice output communication device. In the video clip, you 
will see that Bruce is answering questions about predicted and actual 
temperature within days of receiving his device.
    From his performance, it is clear that a series of unfortunate 
errors and low expectations from the IEP team across a number of years 
has reduced his ability to communicate, and thus has denied him access 
to the general curriculum. Sadly, Bruce will exit school this year 
without a high school diploma which will gravely limit the 
opportunities available to him after high school. Bruce's story 
illustrates a classic example of the failure of the IEP team. IEP teams 
are limited by the knowledge they have available to them and the extent 
to which they access to high quality professional development and 
technical assistance. In most cases, neither professional development 
or technical assistance is available. Further, shift in system 
accountability to the IEP team would seriously threaten productive 
home/school partnerships and increase the probability of due process 
procedures, attorney involvement, and litigation. If the only place to 
ensure the system is accountable for a child is through the IEP team 
process, then all parents will bear a terrible burden to ensure THEIR 
child benefits from a free appropriate education under IDEA. The 
research on the quality of the IEP team processes and outcomes suggests 
that, instead, parents will have to accept what schools choose to 
offer, regardless of what their child needs to be successful (Hunt & 
Goetz, 1989; Turner, Baldwin, Kleinert, & Kearns; 1997). Bruce's story 
illustrates this problem. For these reasons, we believe that the IEP is 
not a viable option as an accountability tool.
    Alternate Achievement Standards. Students in alternate assessments 
on alternate achievement standards are among the most diverse of the 
assessed populations and the least is known about how they achieve 
competence in academic domains and the curricular pathways to academic 
competence. As described previously, the students who are emerging in 
their language development may require a different set of achievement 
expectations until consistent responding and engagement can be 
established. More than one alternate achievement standard is currently 
allowed under the 1% regulation, and that option should be continued to 
meet the needs of these students-. While we continue to build the 
knowledge base around these instruments, maintaining the flexibility 
for setting multiple achievement standards for these assessments is 
warranted., Students with the most significant cognitive disabilities 
should continue to be engaged in reading, math, and science activities 
based on content standards that that are chronologically age 
appropriate, linked to grade-level content, and consistent with what 
peers without disabilities are learning. This least dangerous 
assumption (Donnellan, 1984; Jorgensen, 2005) will safeguard their 
learning opportunities until more data are available.
    Academic Content Standards Linkage. Earlier in this testimony, I 
reported data indicating that the majority of students (70%) in 
alternate assessments read sight words and solve math problems with a 
calculator (Kearns et. al. in press). Our data also suggest that the 
percentages of students performing these skills across the grade bands 
from elementary to high school do not appear to change much. While 
these data are not longitudinal, we would expect increased percentages 
of more difficult skills as students advance through the grades and 
decreased percentages of easier skills as students advance through the 
grades. These data suggest that performance may be essentially static, 
meaning that limited progress is made beyond elementary school (Kearns 
et. al). Despite the growing number of studies pointing to the 
effectiveness teaching students in this population academic content 
reading, math, and science (Browder,Wakeman, Y.Spooner, Ahlgrim-
Delzell, & Algozzine, (2006); Browder, Spooner, Ahlgirm-Delzell, 
Wakeman, & Harris, (2008); Courtade, Spooner, & Browder, (2007); many 
continue to argue for functional skills. To counter that argument, 
Kleinert, Collins, Wickham, Riggs, & Hagar (in press) suggest that 
these skills are best embedded into naturally occurring routines across 
the student's day alongside academic instruction.
    We recommend vigilance in maintaining a close linkage to grade-
level academic content standards and consideration of achievement 
standards that mirror the highest achievement standard possible for 
this group of students.
    Career & College Ready. As yet, limited data are available on 
extent to which students who participate in alternate assessments are 
prepared to transition from school to adult life. Current post school 
outcome data define a positive outcome as fully time enrollment in post 
secondary education or full-time employment. Few students in the 1% 
population achieve full-time employment or post secondary education 
(Newman, Wagner, Cameto, & Knokey, 2009; Wagner, Newman, Cameto, 
Levine, & Gazar, 2006). As a result, little is known about their post 
school outcomes. However, a Kentucky study in progress will consider 
the student interview data among students who participate in an 
alternate assessment for the ACT to describe current outcomes. The 
Kentucky Transition Attainment Record (TAR) includes transition student 
and IEP team interviews. Kearns, LoBianco, & Harrison (in preparation) 
found that the majority of these students plan to receive special 
education services through age 21. Roughly, two thirds of these 
students plan to have full or part time jobs and have identified 
supported employment as an important transition support. This figure 
compares to the majority of students in this population who read sight 
words and solve math problems with a calculator. An additional one 
third of students checked ``stay at home'', which also compares to the 
percentage of students who are pre and emerging symbolic language 
users.
    The majority of these students selected job interests related to 
working with children, animals, or food service. When asked what they 
would like to learn more about in school, the most selected responses 
were 1) computers, 2) work experience, and 3) music and arts. These 
responses were followed by academic goals of reading, math and science. 
While these data are very preliminary, the Kentucky Department of 
Education has authorized a study to merge these data with other student 
assessment and transition data sources to provide a more complete 
picture of the transition outcomes for these students.
    We want to build a vision that post secondary education is an 
option for all students including those with intellectual disabilities. 
Programs like Think College at Boston College or the Transition Program 
at Asbury College in Kentucky are making post secondary educational 
opportunities available to these students. Increasing post secondary 
opportunities for this population underscores the importance of 
academic instruction and vigilance in maintaining close alignment with 
content standards.
    Alternate Assessments. Unlike students in the general assessment 
who respond independently to what are described largely as multiple 
choice or open response items, students in this population must rely on 
a direct observation by the teacher of the student engaging in the 
behavior or the teacher's recall of a student's previous performance. 
At this time, nearly all alternate achievement standards assessments 
are individually administered generally by building personnel and in 
most cases the student's teacher (Quenemoen, Kearns, Quenemoen, 
Flowers, & Kleinert, 2010). The level of teacher involvement in an 
accountability environment represents an inherent validity problem 
which must be accounted for in the assessment design (Gong, & Marion). 
However, given that the majority of this population (70% read sight 
words and solve math problems with a calculator) (Kearns et al. in 
press), it may well be possible for these students to respond 
independently using touch-screen, screen readers, and other use of 
technology. While the feasibility of this approach is unknown, given 
the rate of technology development, it is certainly worth 
consideration.
    It is important to note that the name of an alternate assessment is 
also not necessarily an indicator of the quality of the assessment. All 
the nominal categories used to describe assessments for this population 
(portfolio, performance task, rating scale, multiple choice with 
picture choices), have relative strengths and weaknesses from a 
technical quality point of view (Gong & Marion, 2006). Technically 
sound assessments account for the weaknesses they present and clearly 
explicate the interpretations or inferences that can and cannot be made 
from the assessment results (AERA, APA, NCME Standards for Assessments, 
1999). As a result many hybrid AA-AAS are beginning to emerge which may 
include features from multiple formats. While technical quality in AA-
AAS continues to improve, poorly designed AA-AAS are simply poor 
assessments regardless of the name given to the assessment format. To 
that end, assessment format is less important than consistent use, 
achieving the intended purpose and consequences while minimizing 
negative consequences. Ultimately, the technical properties of an 
alternate achievement standards assessment format will be revealed in 
carefully planned and documented validity studies.
Who is Responsible for These Students' Success?
    Research suggests that home/school partnerships are essential to 
promote achievement (Heward, 2009)). Our son John has a diagnosis of 
Attention Deficit Hyperactivity Disorder and is reading behind his 
peers. Through response to intervention, he has received intensive 
reading instruction by a reading specialist in addition to the supports 
he needs to access the general curriculum. The partnership that we have 
with his teacher and his reading specialist has resulted in steady 
progress. Should he qualify for services under the IDEA, we want to 
build partnerships with his teachers. Furthermore, we want his teachers 
to have high expectations for his performance, we want an 
accountability system that recognizes his participation, challenging 
academic standards, and well-designed progress and proficiency 
measures. We want to know where the achievement standard is, how close 
or far away his performance is from the achievement standard, and more 
importantly what we need to do to in partnership with his teachers to 
support his achievement. His future depends on it.
    I want to acknowledge that the ESEA has a long history of 
supporting students with disabilities through the birth of the IDEA in 
the late 1970's through the current authorizations of both the IDEA and 
ESEA. Never in our history have children with disabilities been 
considered more a part of the essential elements of what we know as 
school Curriculum, Instruction, and Assessment. Indeed accountability 
has been largely responsible for giving students with disabilities 
access to challenging content, improved instruction, and highly 
qualified teachers. I see this discussion today as important in the 
continued progress toward achieving the goal of equal educational 
opportunities for all children.
                               references
AERA, APA, NCME (1999). Standards for educational and psychological 
        testing. Washington, DC: American Educational Research 
        Association.
Betebenner (2005) Norm and Criterion Referenced Student Growth. http://
        www.nciea.org/publications/normative--criterion--growth--
        DB08.pdf
Browder, D. M., Wakeman, S. Y., Spooner, F., Ahlgrim-Delzell, L., & 
        Algozzine, B. (2006). Research on reading instruction for 
        individuals with significant cognitive disabilities. 
        Exceptional Children, 72,392-408.
Browder, D. M., Spooner, F., Ahlgirm-Delzell, L., Wakeman, S.Y. & 
        Harris, a. (2008). A meta-analysis on teaching mathematics to 
        students with significant cognitive disabilities. Exceptional 
        Children, 74, 407-432.
Courtade, G. R., Spooner, F. & Browder, D. M. (2007). A review of 
        students with students with significant cognitive disabilities 
        that link to science standards. Research and Practice in Severe 
        Disabilities, 32, 43-49.
Donahue Institute. (2004, Oct). A study of MCAS achievement and 
        promising practices in urban special education: Report of field 
        research findings (Case studies and cross-case analysis of 
        promising practices in selected urban public school districts 
        in Massachusetts). Hadley, MA: University of Massachusetts, 
        Donahue Institute, Research and Evaluation Group. Available at: 
        http://www.donahue.umassp.edu/docs/?item--id=12699
Donnellan, A. (1984). The criterion of the least dangerous assumption. 
        Behavioral Disorders, 9, 141-150.
Fincher, M. (2007). ``Investigating the academic achievement of 
        persistently low performing students'' in the session on 
        Assessing (and Teaching) Students at Risk for Failure: A 
        Partnership for Success at the Council of Chief State School 
        Officers Large Scale Assessment Conference, Nashville TN, June 
        17-20, 2007. Retrieved August, 2007, from: http://
        www.ccsso.org/content/ PDFs/12%2DMelissa%20Fincher%20Paul% 
        20Ban%20Pam%20Rogers% 20Rachel%20Quenemoen.pdf.
Gong, B., & Marion, S. (2006). Dealing with flexibility in assessments 
        for students with significant cognitive disabilities. Dover, 
        NH: National Center for the Improvement of Educational 
        Assessment. (PDF : 202 Kb)
Hawkins, V. J. (2007). Narrowing gaps for special-needs students. 
        Educational Leadership, 64 (5), 61-63.
Heward, W.L. (2009). Collaborating with parents and families in a 
        culturally and linguistically diverse society. In W.L. Heward, 
        Exceptional children: An introduction to special education (pp. 
        88-126). Upper Saddle River, NJ: Pearson Education.
Hill, Gong, Marion, DePasquale, Dunn & Simpson (2005) Using Value 
        Tables to Explicitly Value Student Growth. http://
        www.nciea.org/publications/MARCES--RH07.pdf retrieved 03/09
HB 05-1246 Study Committee (2005, December 31). Assessing ``students in 
        the gap'' in Colorado. Retrieved May, 2006, from http://
        education.umn.edu/nceo/Teleconferences/tele11/ColoradoStudy.pdf
Jorgensen, C. (2005). The least dangerous assumption: A challenge to 
        create a new paradigm. Disability Solutions, (6) 3.
Kearns, J., LoBianco, T. & Harrison, B. (in preparation). An analysis 
        of transition outcomes for students with significant cognitive 
        disabilities in Kentucky. Lexington: University of Kentucky.
Kearns, J., Towles-Reeves, E., Kleinert, H., Kleinert, J., & Thomas, M. 
        (in press). Characteristics of and implications for students 
        participating in alternate assessments based on alternate 
        achievement standards. The Journal of Special Education.
Kleinert, H. Collins, B. Wickham, D. Riggs, L. & Hagar, K. (in press). 
        Embedding life skills, self-determination, and enhancing social 
        relationships and other evidence-based practices. In H. 
        Kleinert & J. Kearns, (in press). Meaningful outcomes for 
        students with significant cognitive disabilities: Alternate 
        assessment on alternate achievement standards. Baltimore: Paul 
        Brookes.
Lazarus, S., Wu, Y.-C., Altman, J., & Thurlow, M. (2010).NCEO brief: 
        The characteristics of low performingstudents on large-scale 
        assessments. Minneapolis, MN: University of Minnesota, National 
        Center on Educational Outcomes.
Marion, S., Gong, B., & Simpson, M. A. (2006, Feb. 6). Mining 
        achievement data to guide policies and practices on assessment 
        options. Teleconference on Making Good Decisions on NCLB 
        Flexibility Options. Minneapolis: National Center on 
        Educational Outcomes. Retrieved April, 2009, fromhttp://
        education.umn.edu/nceo/Teleconferences/tele11/default.html
Megan's Story: A Study in Postsecondary Education for Persons with 
        Intellectual Disabilities. University of Kentucky : 
        Interdisciplinary Human Development Institute. Retrieved from 
        http://www.hdi.uky.edu/Media/MegansStory.wmv
Morgan, Frisco, Farkas, & Hibel (2010). A propensity scoter matching 
        analysis of the effects of special education. Journal of 
        Special Education 43 (4), pp. 236-254.
National Association of School Psychologists (NASP). (2002). Position 
        statement: Rights without labels. Original statement adopted by 
        NASP Delegate Assembly in 1986. Revision adopted by NASP 
        Delegate Assembly, July 14, 2002. Retrieved March 10, 2009, 
        from http://www.nasponline.org/about--nasp/pospaper--rwl.aspx
New England Compact. (2007). Reaching students in the gaps: A study of 
        assessment gaps, students, and alternatives. (Grant CFDA 
        #84.368 of the U.S. Department of Education, Office of 
        Elementary and Secondary Education, awarded to the Rhode Island 
        Department of Education). Newton, MA: education Development 
        Center, Inc.
Newman, L. Wagner, M. Cameto, R. & Knokey, A. (2009). The post high 
        school outcomes of youth with disabilities up to 4 years after 
        high school. A report of findings from the national 
        longitudinal transition study-2. Retrieved from www.nlts2.org/
        reports/2009--04ntls2--report--2009--04--complete.pdf.
2009 Ohio Followup Study on Students with Disabilities
Perie, M. (2009). Understanding the AA-MAS: How does it fit into a 
        state assessment and accountability system? Presentation to 
        CCSSO SCASS meeting, February 4, 2009.
Perie, M. Marion, S. & Gong,B. (2007). A framework for considering 
        interim and benchmark assessments. The National Center for the 
        Improvement of Educational Assessment. http://www.nciea.org/
        publications/ConsideringInterimAssess--MAP07.pdf
Quenemoen, R. (2010). Who are the students taking modified achievement 
        standard assessments.
Thompson, S.J., Morse, A.B., Sharpe, M., & Hall, S. (2005). 
        Accommodations manual: How to select, administer, and evaluate 
        use of accommodations for instruction and assessment of 
        students with disabilities. Washington, DC: Council of Chief 
        State School Officers, ASES SCASS. Also available from OSEP 
        toolkit at http://www.osepideasthatwork.org/toolkit/
        accommodations--manual.asp.
Thompson, S.J., Johnstone, C.J., Anderson, M. E., & Miller, N. A. 
        (2005). Considerations for the development and review of 
        universally designed assessments (Technical Report 42). 
        Minneapolis, MN: University of Minnesota, National Center on 
        Educational Outcomes. Retrieved [03/13/2010], from the World 
        Wide Web: http://education.umn.edu/NCEO/OnlinePubs/
        Technical42.htm
Thurlow, M. L., Moen, R. E. Liu, K. K., Scullin, S., Hausmann, K. E., & 
        Shyyan, V. (2009). Disabilities and reading: Understanding the 
        effects of disabilities and their relationship to reading 
        instruction and assessment. University of Minnesota: 
        Partnership for Accessible Reading Assessment.
Wagner, M. Newman, L. Cameto, R. Levine, P. & Gazar, N. (2006). An 
        overview of the findings from wave 2 of the national 
        longitudinal transition study-2 (NTLS-2). Retrieved from the 
        www.nlts2.org/reports/2006--08nlts2--report--2006--08--
        complete.pdf
                                 ______
                                 
    Chairman Kildee. Thank you.
    Dr. Curry?

 STATEMENT OF DANIEL CURRY, SUPERINTENDENT, LAKE FOREST SCHOOL 
                            DISTRICT

    Mr. Curry. Good morning, Chairman Kildee, Mr. Castle, 
members of the committee. My name is Dan Curry. It has been my 
pleasure--I often say I have the best job in the world--to be 
superintendent of Lake Forest School District since 2003.
    Prior to that, I served 15 years in that same capacity in 
my home state of West Virginia in districts ranging from 1,500 
students to 15,000 students, the most rural of which is 
considered the most rural school district east of the 
Mississippi, I understand, with 1.3 children per square mile.
    First, let me say that ESEA allocations have always been a 
godsend to rural school districts. It is the nature of rural 
school districts to have high instances of poverty and low 
property values, leading to limited resources collected through 
property tax.
    Central office staffs are often small, and they wear 
multiple hats. For my 6 years in the central office in 
Pocahontas County, I think I did virtually every assignment 
there would be, including, as Mr. Castle, mentioned, I did 
drive a bus on occasion.
    Rural superintendents I have talked to all agree that 
formula funding is the fairest means of distribution of ESEA 
funds. We fear that turning to competitive grants might leave 
rural districts at a disadvantage to compete. Most don't have 
grant writers, nor do they have the resources to dedicate to 
them.
    Spending time and money to go after grants we may not get 
is a poor use of human capital, especially during this economic 
downturn. It will do nothing but broaden the gap between the 
haves and the have-nots.
    I urge the committee to ensure that formulas are equitable 
for rural school districts. Specifically, the funding formulas 
should be based on percentages of poverty, not raw numbers. A 
poor student is a poor student no matter where they live and 
should not lose funding because they choose to live in a rural 
community.
    The challenges facing rural schools are many. Recruiting 
and retaining teachers continues to be difficult for many. Some 
districts have no choice but to maintain small schools with 
small enrollment. Geographical isolation and transportation 
challenges make that so.
    This leads to teachers who must teach multiple subjects and 
makes it almost impossible for them to meet the standard to be 
considered highly qualified.
    First-time teachers willing to agree to any assignment for 
a chance to teach can find themselves committing to a heavy 
load of multiple class preps, while driving miles after work 
several days a week to take the necessary classes. In general, 
rural school districts face the same challenges when it comes 
to finding a sufficient candidate pool of qualified candidates 
for special education, math and science, in particular.
    Rural surroundings are sometimes a deterrent to some 
candidates. Though they may be willing to go anywhere when 
looking for work, many will leave after a time, seeking easier 
access to basic amenities like grocery stores and shopping 
centers and theaters. And in addition, there is little focus by 
the teacher training programs to encourage candidates to take 
jobs in rural communities.
    The rural school district student is like every other 
student in the United States, except he is accustomed to long 
rides on the bus. He wants to do well. He will respond to good 
teaching and high expectations and a climate that is supportive 
and challenging.
    I urge you to take steps to see that student progress is 
measured by growth and achievement and that progress for 
students in special education be in accordance with the 
educational goals of their IEP.
    When creating the new accountability system, I would like 
to remind the subcommittee to take into account the impact of 
small numbers of students. Rural schools are more likely to 
have small schools, small class sizes, and when using student 
assessment data for accountability or for tracking the progress 
of teachers, remember that the results of just one or two 
students can skew the results.
    Finally, graduation rates. If we are to reach the 
administration's goal of college-and career-ready students, we 
need to let go of the expectation that all children will get 
that done in 4 years. Those of us who have sent our kids to 
college recently--and I am one--learn that they may need more 
than 4 years to complete college. The college degree earned in 
5 years or 6 years has the same value as the one earned in 4.
    Why then must we--while acknowledging that all children can 
learn, but they learn at different rates--be prodded to get 
every child through high school in 4 years? Many would be 
better served with a 5-year plan. Many, due to challenges at 
home, would like to be supported to attend high school on a 
part-time basis.
    Any high school graduation, whether it takes 5 years, 6 
years, or whether it is earned after taking a year off, should 
be celebrated. A mandated 4-year graduation requirement works 
against all we know and understand of how children learn.
    Thank you for the opportunity to share with you today.
    [The statement of Mr. Curry follows:]

  Prepared Statement of Dr. Daniel Curry, Superintendent, Lake Forest 
                    School District, Kent County, DE

    Good morning. My name is Dan Curry. I have served as superintendent 
of Lake Forest School District in Kent County, Delaware since the 
summer of 2003. I've been a school superintendent for 22 years, having 
served in that capacity for 15 years in my home state of West Virginia. 
Each district was uniquely different. Student enrollment ranged from 
1500 to 15,000. One of those districts, Pocahontas County, is 
considered the most rural school district in the East with presently 
1.3 students per square mile.
    During my years as superintendent I have personally observed, and 
my districts have adjusted to, the change in philosophy from ESEA 
supporting and supplementing the work of the states and local school 
districts to ESEA mandating and directing the work of the school 
districts.
    Lake Forest School district is a rural farm community around 12 
miles south of Dover. We have around 3900 students in 166 square miles. 
Much of our land is dedicated to farming. We have huge fields planted 
mostly in wheat, soy and corn, but there are also plenty of fruits and 
vegetables. From 2004-2006 enrollment increased around 5% each year, 
and some of our fields gave way to sub-divisions.
    The Lake Forest student population is 70% white, 25% African 
American and 5% all others. 43% of our children qualify for free or 
reduced priced meals at school. We have three primary schools with 
grades pre-K--3, one intermediate for grades 4--5, one middle school 
for 6-8 and one high school.
    First let me say that ESEA allocations have always been a godsend 
to rural school districts. It is the nature of rural areas to have high 
instances of poverty and low property values, leading to limited 
resources collected through property taxes. Central office staffs are 
generally small and they wear multiple hats. While working in the 
central office in Pocahontas County, over several years I managed 
almost every program. I even drove bus on occasion. In some smaller 
school districts out west, they may share administrators or the 
principal might also be a teacher.
    Rural superintendents I have talked to all agree that formula 
funding is the fairest means of distribution of ESEA funds. We fear 
that turning to competitive grants might leave rural districts at a 
disadvantage to compete. Most don't have expert grant writers nor do 
they have the resources to dedicate to them. Spending time and 
resources to go after grants we may not get is a poor use of resources 
especially during this economic downturn. It will do nothing but 
broaden the gap between the haves and the have not's.
    I urge the committee to work to ensure that the formulas are also 
equitable for rural school districts. Specifically, the funding 
formulas should be based on percentages of poverty, not raw numbers. A 
poor student is a poor student no matter where they live and should not 
lose funding because they choose to live in a rural community.
    The challenges facing rural schools are many. Recruiting and 
retaining teachers continues to be difficult for most rural school 
districts. Some districts have no choice but to maintain small schools 
with small enrollments. Geographical isolation and transportation 
challenges make that so. This leads to teachers who must teach multiple 
subjects and makes it almost impossible for them to meet the federal 
highly qualified definition. Finding the necessary additional college 
classes to eventually earn highly qualified status or making them take 
multiple assessments to meet this arbitrary definition is also a 
challenge for the same reason. First time teachers willing to agree to 
any assignment for a chance to teach, can find themselves committing to 
heavy load of multiple class preps while driving miles after work, 
several days a week to take the necessary classes.
    In general, rural school districts face the same challenges when it 
comes to finding a sufficient candidate pool of qualified candidates 
for special education, math and science. The rural surroundings are a 
deterrent to some candidates. Though they may be willing to go anywhere 
when looking for work, many will leave after a time, seeking easier 
access to basic amenities like grocery stores, shopping centers and 
theaters. In addition, there is little focus by the teacher training 
programs to encourage candidates to take jobs in rural communities.
    Finding school leaders is much the same. I was first given an 
opportunity to be a principal in rural Pocahontas County at age 24 
because there was absolutely nobody in the district with the licensure. 
I was willing to make that move and it turned out to be a great 
decision in my career, but not everyone would enjoy living and working 
in such a rural area.
    The rural school district student is like every other student in 
the United States, except he is accustomed to long rides on the school 
bus. She wants to do well. He'll respond to good teaching and high 
expectations in a climate that is supportive and challenging. I urge 
you to take steps to see that student progress is measured by growth in 
achievement and that progress for students in special education be in 
accordance with the educational goals of their IEP as opposed to the 
goals of the average student.
    My district last year had the highest percentage of 8th grade 
students scoring proficient in Math--we ranked 1st in the state. Our 
8th grade writing scores were 2nd and reading scores ranked 3rd. Yet, 
my middle school did not make AYP. Why? Because our special education 
students did not meet the general population target for proficiency. 
Our special education students are learning and making great strides; 
however, we must measure them based on what they are learning.
    When creating the new accountability system, I would just like to 
remind the subcommittee to take into account the impact of small 
numbers of students. Rural schools districts are more likely to have 
small schools and small class sizes. When using student assessment data 
for accountability, or for tracking the progress of teachers, remember 
that the results of just one or two students can throw off the results.
    In addition, remember that every time the federal government 
requests data on an issue, there is someone in a school district that 
is now responsible for tracking that new item. While never bad on its 
own, when these data points are added up they have a huge burden on 
rural schools which often lack administrative staff. Instead, 
principals and sometimes teachers are running around to meet these data 
requests. This is time away from critical instruction. Please remember 
the impact at the local level when these data requests are made.
    I would also like to mention my support on behalf of rural 
superintendents for the Rural Education Achievement Program. While my 
district does not receive this funding directly, a lot of my colleagues 
do. This important funding stream is the only federally dedicated 
funding stream for rural schools across the country, both small and 
high poverty. It provided them with critical formula dollars to help 
overcome the gap in federal funding and their geographic isolation. 
This program has proven to be a huge success story in the over 6,000 
district's nationwide that support it. I urge the subcommittee to adopt 
HR 2446, the REAP Reauthorization Act, introduced by Representatives 
Pomeroy, Graves and Hare. This important legislation will make the 
minor necessary updates to this very important program.
    Finally, graduation rates. If we are to reach the administrations 
goal of ``College and Career--Ready Students'' we need to let go of the 
expectation that all children will get it done in 4 years. Those of us 
who have sent our children to college in recent times have learned that 
many will need more than 4 years to earn a degree. The college degree 
earned in 5 years or 6 years has the same value as that earned in 4. 
Why then must we, while acknowledging that all children can learn, but 
they learn at different rates, be prodded to get every child through 
high school in 4 years? Many would be better served with a 5 year plan. 
Many, due to challenges at home, would like to be supported to attend 
high school on a part-time basis. Any high school graduation, whether 
it takes 5 years, 6 years or whether it's earned after taking a year 
off, should be celebrated. A mandated 4 year graduation requirement 
works against all we know and understand of how children learn and 
develop.
    Thank you for the opportunity to share my thoughts with you today. 
I would be happy to take any questions.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Dr. Dale?

 STATEMENT OF JACK DALE, SUPERINTENDENT, FAIRFAX COUNTY PUBLIC 
                            SCHOOLS

    Mr. Dale. Thank you, Chairman Kildee and Governor Castle, 
and members of the subcommittee. I appreciate the opportunity 
to address you this morning.
    I would like to start with, Mr. Kildee, your comments at 
the beginning about how much of the United States now is a 
cross-section of the world and how important it is to prepare 
our children for the world, because I share that passion with 
you.
    I would like to reflect a little bit on what we have all 
learned, I think, from the first round of No Child Left Behind 
high stakes accountability and then provide some of my thoughts 
for the future.
    The first thing I think we have learned--and you can see 
from all of us is disaggregation. We pay very close attention 
to our subgroups. But I think the next iteration, the next 
level of disaggregation, is individual students, because behind 
every successful school in the United States is when they have 
peeled the onion back and disaggregated to individual students. 
And that is where our next area of emphasis should be.
    We have also learned the importance of assessment. We have 
talked about the variety of assessments. Ms. Diaz has talked 
about the importance of data analysis, Ms. Kearns about the 
alternative assessments. And one of the things that we have 
learned in assessments is one size does not fit all. And what 
we have learned, though, is how much richer some of our 
assessments can be when we think about the needs of our 
individual children, and that is extremely important in this 
next iteration.
    I am almost beginning to think, too, it is a little bit 
less important about the individuals we hire to be teachers and 
principals and maybe more important about what those people do 
once they are on the job.
    I have found that our most successful schools are ones 
where the teams of teachers and principals are beginning to 
work diligently on individual student needs, individual student 
learning gaps, individual student assessment changes to get at 
what their children know, and I think that is the interesting 
thing that we need to keep perspective of.
    The diversity--Fairfax County public schools, we have over 
170,000 children. We do represent the nation. One place we are 
different--and I will make some comments about--is in our 
English-language learner population.
    While we have a comparable percentage of our students who 
are English-language learners, we differ in that about 80 
percent of our English-language learners are not U.S.-born 
students. They are immigrating to the United States, most 
recently even from Haiti.
    But what we have learned with our English-language learners 
is how important it is to teach them English and how to ensure 
that they teach--or they learn English and that we can assess 
that English-language progress and then begin to assess 
simultaneously in a phasing program their knowledge and 
background in literacy and in math and science and social 
studies, but they must master English, and we must have 
transitional assessments to accommodate that.
    Our special education children are no different than 
whatever everybody else has talked about. One of the things I 
would note is in the nation we are becoming--I think we are 
having greater percentages of our children with greater needs. 
And so while a great proportion of our children can be assess 
through the normal process, we are also beginning to see 
greater numbers of children who need alternative assessments so 
that we can communicate with them, they can communicate with 
us, and they can demonstrate the knowledge that they, in fact, 
have, so that alteration and assessments is extremely 
important.
    We tried that in Virginia. We had a Virginia grade-level 
assessment, which was basically a portfolio assessment. Some 
people think it is suspect because it allowed greater passage 
rates. I think it is a step in the right direction, because it 
actually allowed children to demonstrate their deep 
understanding of the content that we are expecting them to 
learn. The normal testing mechanisms did not allow that 
particular exhibition of knowledge to take place.
    Funding. Funding is always an issue. With stimulus funding, 
we have all benefited greatly through the increase in Title 1 
and IDEA funds. We are all recognizing the cliff that is coming 
after one more year.
    With IDEA especially, I think we should try and advocate 
for the continuation of that level of funding for our special 
needs children because, as I mentioned, we are having greater 
numbers of those children and we need to pay attention to their 
needs much more so.
    A comment about assessments. Not only should we standardize 
those across the United States, as we are trying to do, and I 
can see the administration pushing us in that direction, a good 
thought, but we also need to push ourselves to look at world 
assessment. Things that we are looking at in terms of world 
assessments are pieces of the program for international student 
assessment or TIMS, the trends in international mathematics and 
science. We should be looking at some of those, as well as our 
U.S. based assessments.
    Finally, I want to make a comment about college readiness. 
College readiness is going to be a challenge because we do not 
have a universal definition of what college readiness means. 
Our community colleges, our traditional state 4-year colleges, 
and our competitive private college entrance assessments vary 
greatly.
    And while we aspire to have all of our students college-
ready and/or career-ready, we have a train wreck coming in that 
definition. Thank you.
    [The statement of Mr. Dale follows:]

  Prepared Statement of Dr. Jack Dale, Superintendent, Fairfax County 
                      Public Schools, Fairfax, VA

Overview
    The mission of Fairfax County Public Schools (FCPS), a world-class 
school system, is to inspire, enable, and empower students to meet high 
academic standards, lead ethical lives, and demonstrate responsible 
citizenship. FCPS believes that each child is important and entitled to 
the opportunity to realize his or her fullest potential, and that a 
well-rounded education enables students to lead fulfilling and 
culturally rich lives.
    Fairfax County students achieve at high levels across a broad 
spectrum of pursuits. FCPS values a well-rounded education that goes 
beyond basics, and encompasses the arts, literacy, languages, 
technology, and preparation for the world of work. FCPS provides a 
breadth and depth of opportunities to allow all students to stretch 
their capabilities. More than 93 percent of FCPS graduates go on to 
postsecondary study--including more than 62 percent to four-year 
colleges. The on time graduation rate is more than 90 percent.
    FCPS is the largest school system in Virginia and the twelfth 
largest in the United States. In the 2009-2010 school year, more than 
173,000 students are served by 22,137 staff members in 197 schools and 
centers. Fairfax County is home to more than a million residents and 
reflects an increasing level of cultural, economic and linguistic 
diversity. Fewer than 47 percent of FCPS' students identify themselves 
as White; 18 percent Asian American; 18 percent Hispanic; 10 percent 
African American; and 6 percent Multiracial. While the county is often 
viewed as having wealth and resources, it also has the highest cost of 
living in the state. In the current school year, more than 39,000 FCPS 
students are eligible for the Federal Free and Reduced-Price Meals 
Program (FRL), a nationally recognized benchmark indicating poverty.
    Fairfax County's critical issues include a rapidly growing 
population, increasing diversity, primarily from immigration and 
resettlement, poverty, extreme income disparity, high mobility, as well 
as the recession, which continues to significantly impact our 
community. Decreased revenue at the county level has led to a decrease 
in the amount provided to FCPS, which relies on the county for nearly 
75 percent of its funding. The budget crisis in the schools will impact 
a wide range of programs and services, in particular programs that 
impact low income and language minority students.
ELL
    Currently in FCPS, more than 41 percent of PreK-12 students live in 
homes in which a language other than English is spoken (language 
minority students), with more than 140 different languages and 200 
countries represented. Students come to FCPS from all over the world, 
with major groups coming from Central America (El Salvador, Guatemala), 
South America (Peru, Colombia, Argentina), Asia (Korea, Vietnam, China, 
the Philippines) and Africa (Somalia, Ghana). Some of the most recent 
arrivals include orphans from Haiti being united with families in 
Fairfax. Approximately half of FCPS language minority students (or 20 
percent of the total FCPS student population) are also English language 
learners (ELLs--also referred to as limited English proficient [LEP] 
students). The FCPS ELL student population has more than quadrupled in 
the past 20 years.
    Nationwide, ELLs are the fastest growing student population, and 
are projected to comprise more than 25 percent of the entire K-12 
student population in the US by the year 2050. To prepare ELLs to be 
successful members of the 21st century global society, there is a need 
to articulate a clear national vision of high expectations for ELLs. 
This includes guaranteeing ELLs equal access to advanced academic 
programs, including Advanced Placement (AP) and International 
Baccalaureate (IB) courses, and college and career preparation 
programs. It is also necessary to provide ELLs with appropriate 
differentiated instruction and resource support to prepare and enable 
them to become successful in these rigorous academic settings.
    It is important to include ELLs in accountability systems, to 
ensure that they are also being provided equal access to and quality 
instruction of content area standards. However, ELLs should be assessed 
with measures that are fair, valid, reliable, and appropriate for their 
current English language proficiency level while they are learning 
academic English. States should be given the resources to provide those 
appropriate alternative assessments for ELLs, especially when assessing 
literacy.
    Research demonstrates that it can take five to seven years to 
acquire the type of academic English necessary to be academically 
successful. Since ELLs' educational background varies greatly, their 
academic achievement and English language proficiency should be 
assessed using multiple measures, with a focus on their progress and 
growth over time. ELLs who enter US schools during the secondary level 
should be provided with additional time, as necessary, to fulfill 
graduation requirements without penalizing schools through the 
accountability measures.
    ELLs development of English, as well as the knowledge of their home 
language, should be promoted and cultivated so that they can learn to 
communicate in two or more languages to enhance their ability to be 
successful participants of the global economy of the 21st century. 
Innovative models of providing high quality, successful, rigorous, and 
challenging instruction to ELLs should be promoted, rewarded and shared 
nationwide as demonstration models. ELL student populations are growing 
most rapidly in areas around the country that previously did not have 
ELL populations. Therefore, all instructional personnel need pre-
service and ongoing in-service professional development on successful, 
research-based strategies for working with ELLs in the classroom.
IDEA
    The underfunding of the actual cost of programs for students with 
disabilities at the federal level impedes services to all students. 
Federal funding for IDEA has not been brought to the level deemed 
appropriate when PL 94-142 was enacted in 1975 to help school districts 
maintain quality in special education and slow the drain of funds for 
services to students who are not disabled.
    IDEA requires that services mandated in each student's IEP must be 
funded. These services in the IEP cannot be cut when budgets are tight, 
so cuts to other students go a little deeper. Even in good times, there 
is real budget tension between special education and general education. 
Only additional funding or regulatory relief can ease the budget 
tensions and help school districts deal with shortfalls in state and 
local revenue as a result of the recession.
    Currently FCPS serves 24,502 students with disabilities through 
IEPs. Of particular concern is that while the number of students with 
mild disabilities has increased only slightly, the number of students 
with severe disabilities has increased significantly. These students 
receive more than 50 percent of their education in self contained 
settings. The number of students with significant disabilities has 
risen by 12 percent. In the area of autism alone, there has been an 
increase of 413 students from 2007 to 2009. The cost to educate these 
students can be in excess of $10,000 per student in addition to the 
general education per pupil cost. The services are IEP-driven and are 
mandatory requirements of a law that is funded at approximately 15 
percent of the cost to the district. Stimulus funding through the IDEA 
created some partial support in this area but with the loss of this 
funding in FY12, the education services to all students will be 
compromised. Permanent funding must be found to close this gap.
Assessment Requirement
    The testing requirements in IDEA and NCLB initially produced 
results which were not useful in planning individual or group 
instruction for students with disabilities who function at low to very 
low cognitive levels. The tests based on the federal requirements 
measure proficiency based on long lists of grade level standards but 
are not connected to a clear objective, like readiness for the next 
grade, or college/career readiness. These laundry-list tests were 
clearly not suited for students who function at a very low level.
    This resulted in the adoption of the one percent rule, which helped 
to ensure that the information coming from tested students would be a 
more accurate reflection of overall student performance. However, the 
many standards and the lack of internal connectivity among the 
standards still resulted in tests where students functioning at lower 
cognitive levels, but not the lowest, faced few items they could 
answer, leaving the assessments unreliable for these students as well. 
The United States Department of Education came up with a two percent 
rule to deal with inaccurate and unreliable tests for this next tier of 
students. The two percent rule has not been easy to implement because 
federal rules still insist on standards rigidly tied to grade levels 
and because of the lack of appropriate assessments designed to address 
the continuum of cognitive functioning. Virginia created the Virginia 
Grade Level Assessment (VGLA) in an attempt to respond to the two 
percent challenge. While a step in the right direction, the VGLA has 
not proven adequate. In fairness, no assessment will be adequate until 
federal requirements permit adaptive assessment and until there are 
fewer, clearer standards that build step by step to a logical 
measurable end, like college and career readiness.
    Assessment provides a valuable staff development opportunity. 
Teachers learn more, and schools improve when they are provided time to 
sit down and analyze the data from these assessments with their teams. 
They work together to apply what they have learned from the analyses to 
formulate plans to bridge the gaps on student achievement
Funding
    All of these accountability programs and assessments have a direct 
and substantial impact on local resources. The estimated local cost to 
FCPS of the underfunded federal programs is listed below:
    <bullet> IDEA--$43 million (would have been nearly $62 million 
without stimulus)
    <bullet> NCLB--$16 million
    <bullet> ELL--$51.5 million
    <bullet> Homeless--$112,000 for staff (not including additional 
classroom resources) and $500,000 in transportation costs covering 
taxis, buses, vans, and gas and smart trip cards.
    Additionally, FCPS is eligible for greater Impact Aid under current 
allotment formulas than is received. However, because Impact Aid is not 
fully funded, school divisions like FCPS that have large overall 
operating budgets relative to their Impact Aid eligible population 
receive proportionately fewer Impact Aid dollars. If fully funded 
according to the federal definition, FCPS would receive $15.8 million 
in Impact Aid; instead of the $3.5 million received in FY 2009.
Looking to the Future
    Assessment can and should improve, and we have many of the tools 
necessary to improve these tests. Performance assessment and adaptive 
assessment have made huge strides in reliability and validity since the 
adoption of No Child Left Behind. The new ESEA and then the new IDEA 
must permit the use of these more accurate assessments. Educators want 
to improve accuracy by measuring growth or progress over time. Time can 
be measured by grade level or by years in school, but there must be a 
beginning point for each student that is accurate and tracks over time. 
Such measures require a clear end target and equally clear steps and 
benchmarks along the way.
    Assessment must move from a once a year event to a regular 
occurrence that is built into the learning experience. Results must be 
available within hours, not months, and the results must be 
individualized. School districts must also be permitted to include 
valid and reliable assessments they develop or purchase along with 
required state assessments to provide a more complete picture of 
student achievement in the aggregate and for individual students. Then 
the two percent rule could be eliminated because the continuum of 
cognitive functioning will be accommodated in the assessment design.
    More importantly every high scoring country internationally is 
using high-quality performance assessments. No country that scores high 
on international benchmarks like the Programme for International 
Student Assessment (PISA) or Trends in International Mathematics and 
Science Study (TIMSS) is using the type of tests required by IDEA/NCLB 
to improve schools or to measure student achievement, so why are 
students in the US left using the Model T version of assessment?
    Standards must improve too. States now have long lists of standards 
for each tested grade level. These standards exist in isolation from 
each other and do not include internal steps or benchmarks that would 
inform students, parents, teachers, and administrators about student 
progress. Fewer, clearer standards that build to an easily understood 
and measured end point such as college and career readiness are a must 
if students are to have a clear road map to success. In particular, 
special education and ELL students and their parents need that map to 
plan their futures.
    Students who do not speak English well enough to take a content 
test in English are also disadvantaged by the requirements of IDEA/NCLB 
and by the rules established by the US Department of Education to 
implement those programs. At some point on the continuum of mastery, a 
student's content knowledge can be accurately assessed in English. 
Until they get to that point, there are too few items on current tests 
to accurately and reliably gauge their academic achievement--the 
content tests simply become a measure of their comprehension of the 
English language. The rigid rules about time in school assume a uniform 
rate of learning English which is not consistent with what we know 
about student language mastery. There must be some flexibility in 
determining readiness for content-level testing and then the 
assessments themselves must be improved to give students the best 
opportunity to demonstrate their content knowledge.
    Instead of choosing assessments based on what is educationally 
sound and best for our students, the assessments being used appear to 
have been chosen largely based on their cost. State of the art testing 
will require new resources, and those resources must come from the 
Federal Government. We cannot require states and localities to use of 
high quality assessments without making the resources available to 
implement them properly. Our students need and deserve these changes to 
stay competitive in our dynamic global economy.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    I want to thank all the witnesses for their testimony and 
will now proceed with the question-and-answer period of the 
hearing. The presentations were very clear, and they provoke 
some good questions from ourselves, too.
    I recognize myself first for 5 minutes.
    President Gipp, one of the important messages in your 
testimony is the significance of tribal consultation. I have 
been a longstanding advocate of native students and understand 
the importance of including tribal leaders in decisions that 
affect their students.
    Can you talk more about the challenges tribal leaders face 
in this area and how we can ensure that the needs of native 
students are properly addressed and just not sometimes 
forgotten? For example, I think in the Race to the Top and in 
the state fiscal stabilization fund, by omission, you were not 
included.
    What can we do to make sure that when we have special 
programs, which made a great difference in many school 
districts in many states, that you are not ignored in that, but 
that you can see how you can be included in those special 
programs that the president initiates?
    Mr. Gipp. Thank you, Mr. Chairman. Indeed, you are correct 
that there has been a major oversight of tribal communities and 
tribal nations with respect to Race to the Top and those kinds 
of opportunities, and our communities have been completely left 
out.
    So I think it would be incumbent upon the executive branch 
to take a look at how they can formulate some of those or 
reformulate some initiatives that could be made available to 
tribal governments and tribal communities.
    The second thing is to look at how we might also look at a 
special initiative enabled by Congress itself so that those 
communities can be included in terms of appropriations and 
directives to the administration to include tribal nations.
    But more importantly, as you mentioned, the issue of tribal 
consultation is a very, very critical thing that needs to be 
ongoing, and it needs to be part and parcel to how the 
Department of Education and other federal agencies conduct 
themselves with respect to tribal governments who do have this 
nation-to-nation relationship with the United States 
government.
    Chairman Kildee. And I think you are very correct. You 
know, I have read many of the treaties. And very often, we fail 
to recognize that there is a direct relationship of government 
to government between the federal government and your tribal 
government.
    I always, particularly with the younger Indians, point out 
that I have, for example, two citizenships. I am a citizen of 
the United States, and I am a citizen of the state of Michigan. 
You and other Native Americans have three real citizenships of 
sovereign entities. You are a citizen of the United States, and 
that is been proven by the number of Indians serving in our 
armed forces. You are a citizen of the state. And you are a 
citizen of your tribe.
    And you have rights and responsibilities that come from 
those citizenships. And I think we have to make sure we don't 
by omission fail to carry that out, because sins of omission 
can be as damaging as sins of commission.
    So I appreciate your comment on that.
    Now I will recognize the governor for 5 minutes.
    Mr. Castle. Thank you very much, Mr. Chairman.
    And let me thank all of you. I think your testimony is 
wonderful, and I can't get to all the questions I have, so I 
apologize for that. But I am going to start with a question and 
go along with Dr. Dale, Dr. Curry and Dr. Kearns, and that is 
the whole issue of adaptive testing, which we are about to 
adopt in Delaware for next--or have adopted, I guess, for next 
year, in terms of computer testing that can go up and down, 
give instant results, and that kind of thing. And you mentioned 
it in your testimony, Dr. Dale.
    But I would be interested in your thoughts about that on a 
broader sense. I think the whole business of assessments is 
going to be a vital question. And however we redo the 
Elementary and Secondary Education Act, and I don't know what 
your experiences with it has been or what your thoughts about 
it are, but I would be curious to hear about that. And I also 
worry about the special populations and their ability to be 
able to handle that kind of testing, too.
    Mr. Dale. You raise excellent questions. The assessments 
that we are looking at trying to put in place to supplement our 
regular standardized--standards of learning test in Virginia 
they are called--is--well, first of all, we are trying to put 
assessments in place that are informative.
    You can assess weekly, monthly, whatever period of time to 
assess progress and intervene. It is to us not educationally 
sound to wait until the very end of the year to begin to do 
assessments that we should be doing that, so those kinds of 
adaptations, I want to say, should take place.
    The other is to try and look at different methods by which 
children can demonstrate their competency. As I mentioned in my 
testimony briefly, we have instituted a portfolio assessment 
collecting artifacts of student work to demonstrate their 
competency, which is a different method than just a paper or 
pencil test to accommodate special needs children, and that is 
a piece that we believe strongly in continuing to research.
    People question whether the validity and reliability of 
that kind of an assessment is comparable to a paper and pencil 
test, but those, I think, are research questions which we 
should continue to pursue and not dismiss, but we should do, as 
Ms. Kearns says, continue to pursue those, to make sure that we 
have equivalent methods by which kids with different kinds of 
needs and disabilities can demonstrate their competency.
    Mr. Castle. Thank you.
    Dr. Curry?
    Mr. Curry. And as you are aware, Congressman Castle, 
Delaware is making a move toward assessments of that ilk. We 
just this week finished our state test in our traditional time 
period in March. And almost immediately, we will go into field 
testing. A new assessment that will be used next year, that 
assessment will be Web-based. Most students will take it on 
computer. And there will be various forms available so that the 
student may take it more than one time throughout the year.
    In that way, it helps inform the teacher so that they can 
adjust instruction and make changes to instructional needs 
based upon the students' performance and a formative level of 
the assessment.
    So we are looking forward to this new opportunity to more 
accurately measure student progress. And I think it will be 
good for all the children of Delaware.
    Mr. Castle. Ms. Kearns?
    Ms. Kearns. Thank you, Ranking Member Castle, for that 
question. I think that is a really important one that both Dr. 
Dale and Dr. Curry pointed out, that they still use their state 
tests as the demarcation of the standard, and I think that is 
really important.
    We want kids with disabilities, particularly, to have 
access. We want to know where the standard is. We want to know 
what the achievement standard is for all kids. And both of my 
colleagues here have mentioned that that was an important part.
    Out of level tests or interim informative assessments in 
addition to that are absolutely fine, as long as they help 
teachers really up the expectations of what kids can know and 
can do, and I think we really want to keep that in our minds. 
We really want to help teachers understand what the 
expectations are and how to get kids to those higher levels of 
expectations, and that would be for all kids.
    Mr. Castle. Thank you.
    I want to ask the other side of the panel a question 
quickly. This is an education hearing, and I understand that, 
but it often, in terms of dealing with children who are 
underachieving and minority groups, or groups just coming to 
America, I worry about what is also happening at home. Are they 
being prepared to be educated, is there--in the encouragement 
of that and that kind of thing?
    I am not sure in redoing the Elementary and Secondary 
Education Act we can address too much of that directly, but Ms. 
Diaz mentioned parents, and I think we are all very conscious 
of the family effect in terms of moving forward.
    Your comments on anything that we should be thinking about 
doing, in terms of making sure that there is a recognition of 
the importance of education among all groups, but obviously 
those who are minorities or have English as a second language 
or some other barriers in terms of education?
    Mr. Wotorson. I think it is a wonderful question, Mr. 
Kildee--I mean, Mr. Castle. I apologize.
    When the Campaign for High School Equity was first put 
together, we put out a document called the plan for success 
that specifically addressed that issue where we were urging 
policymakers to consider a variety of ways of specifically 
addressing how you, in fact, invest communities so that they 
can be better supported in terms of providing wraparound 
services so that there is more support in terms of how you 
involve parents in the education process.
    It is something that we would--that I would say we agree 
with you on 112 percent, that it is something that should be 
invested in and to make sure that there is more support for 
kids outside of school.
    Ms. Diaz. I would also agree. In my experience, it is very 
doable and it is just about being intentional about it. We have 
utilized Title 3 funding very carefully. And what we have found 
is that parents need to be educated, but they also need to be 
taught what things they could do at home, and they need to be 
talked honestly to and boldly.
    In our Hispanic community, for example, the soap operas are 
in the evening, unfortunately, and Univision is very popular. 
That is a total contradiction of what we need as educators for 
them to spend their time and in the evenings.
    We need to explain that to them. It is just something that 
us as educators need to hold on and embrace and say--and expect 
them not to spend their time doing that, but to turn off the TV 
and explain why that is important and then show them how to do 
so.
    We have--I talked a little bit about how we are intentional 
about showing them strategies, and we do that--we try to do 
that with household, common household, you know, goods, for 
example, shaving creams. Most people have shaving cream at 
home. It is a wonderful tool to practice spelling words or 
sight words, for example, but you have to show them. If they 
don't know, they won't implement it.
    But if you can explain what they can do, for example, and 
how to do it and then the results that their students will 
gain, it makes a remarkable difference. Every parent wants 
their child to succeed, and immigrant parents really have high 
expectations for their students. They do not want them to be 
cleaning hotel rooms and dishwashing in the backs of 
restaurants.
    And if you can explain that in that way, the fact that it 
is an investment, it is a sacrifice at that point in time to be 
able to turn off the TV, but it is an enormous investment of 
their time, and if you show them, and if we teach them English, 
as well--part of our Parents Are Teachers program is helping 
parents learn English, as well.
    So it can be done. You just have to be intentional about 
it. And Title 3 funding can be very beneficial to us as 
educators.
    Mr. Gipp. Thank you, Ranking Member Castle. I would agree 
with both of the comments made by Mr. Wotorson and Ms. Diaz as 
to this special population.
    I would also add that our tribes need the authority to 
develop their own measurements and standards. That is something 
that is always been lacking. We always say that the local 
community is a part of American pie and all of those kinds of 
things. That is not been the case historically with the Indian 
tribe and tribal populations.
    I remember my own grandfather being told by the local 
superintendent of the reservation that, when he went home, he 
was not to speak Lakota in the home. He wasn't supposed to 
speak that to his children and likewise. This went on for many, 
many years.
    And so we were always taught that we shouldn't be who we 
were. That, however, is not the case. We are who we are today. 
We have lost a lot of cultural value.
    But on the other hand, it can be put back together because 
our tribes are still there, our children are still there, and 
they are intensely interested in knowing who they are by 
culture, by language and by history. And this is where our 
tribes need to have a voice when we talk about issues of 
accreditation, of standards, of measurement that have been 
totally left out of the picture.
    And that is why it is so important to support tribal 
education departments, to support education standards, and a 
accreditation system that is responsive to who and what we are 
all about and helping us build them from within the community, 
let's put it that way. There is more to say, obviously, about 
this.
    Mr. Castle. Thank you.
    Chairman Kildee. Thank you very much.
    The gentleman from Virginia, Mr. Scott?
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Mr. Wotorson, your organization is a coalition of civil 
rights groups. Do I understand that correctly?
    Mr. Wotorson. Yes, sir.
    Mr. Scott. The achievement gap--in many areas, there is a 
very clearly identifiable, ethnically identifiable achievement 
gap where children of one group are educated to the 10th grade 
and children of another group are educated to the 12th grade. 
Does that violate the principle in Brown that the children--the 
minority race is being denied an equal educational opportunity?
    Mr. Wotorson. I think in many ways it is reflective of the 
unfinished legacy of Brown. On the one hand, Brown intended to 
ensure access, but it never ensured equity. And as you rightly 
point out, we are faced with a situation of a real hyper-
concentration of a number of problems that affect low-income 
and minority students in equitable access to critically 
important educational resources, access to oftentimes the most 
ineffective teachers, just a whole range of things that, at the 
end of the day, do, in fact, have the effect of denying them a 
high-quality education.
    Mr. Scott. And there has been the--in the litigation over 
disabled children 30 years ago, it was concluded that the 
localities had the responsibility of educating special ed 
students and cost could not be a defense, is that right?
    Mr. Wotorson. That is my understanding.
    Mr. Scott. Now, one of the elements of the achievement gap 
is the dropout rate. When we started No Child Left Behind, we 
put in there--there is legislation that they had to consider 
dropout rate. Otherwise, you would have a perverse incentive, 
letting people drop out to drop from the bottom. The more 
people drop out, the higher your average looks, that you had to 
offset by dropouts--unfortunately, we left it up to the states 
to figure out what dropout meant, and by the time they 
finished, it was a meaningless calculation.
    Do you have a problem with leaving it up to the states as 
to how they count who drops out?
    Mr. Wotorson. Mr. Congressman, that is exactly why we have 
called for, at a minimum threshold, holding states accountable 
for student success and requiring states and districts to 
report on how well they are doing in terms of moving students 
towards graduation.
    Mr. Scott. Now, the name of your organization is Campaign 
for High School Equity. Did you find as a finding that the low-
performing schools, in fact, got less resources?
    Mr. Wotorson. The finding has been established, actually, 
for quite some time that generally the lowest-performing 
schools have inequitable access to the same kinds of resources 
and that, more often not, students of color tend to be 
concentrated in those schools. Similarly, teachers with the 
least amount of experience tend to be concentrated in those 
schools, as well.
    Mr. Scott. Dr. Dale, you represent one of the most diverse 
school systems in the nation. When you get your disaggregated 
data and notice that some groups are not achieving and there 
is, in fact, an achievement gap, you have a choice. You can 
just watch or you can try to do something.
    And we have in the legislation kind of cookie-cutter steps. 
Do you do any diagnosis to find out what, in fact, the problem 
is and prescribe a solution to deal with that problem? Or do 
you just go through some cookie-cutter ideas, whether it fits 
or not?
    Mr. Dale. We go through individual--let me respond in a 
couple things. One is to piggyback on the resource question.
    The first thing we have done, regardless of Title 1 
funding, regardless of IDEA funding, regardless of any state 
funding, even, is we distribute additional resources to our 
schools that have the greater needs, and our greater needs are 
defined three ways: underperforming, high poverty, English-
language learners.
    And so we--out of our own local resources--distribute an 
additional set of staffing and additional time for teachers to 
address that, so we----
    Mr. Scott. That is in addition to Title 1?
    Mr. Dale. In addition, well above Title 1. In fact, it is 
probably twice our Title 1 funding. Then, to diagnose issues in 
a given school, we expect our teachers and our principals to 
work on individual student needs. And so we get down to the 
individual student to determine why that student is or is not 
succeeding and provide the intervention. That is our quest.
    Mr. Scott. Does it work?
    Mr. Dale. We have many schools, in fact, where our 
disaggregation data would suggest that the white middle class 
is the underperforming class, interestingly enough. Yes, it 
works.
    Mr. Scott. Good. Thank you.
    And, Ms. Diaz, you have indicated that you can eliminate 
the achievement gap, and you also suggested that a 
comprehensive approach was necessary. What kinds of 
initiatives--you mentioned a couple of them--actually eliminate 
the achievement gap?
    Ms. Diaz. I think education within our educators is 
important. One of the things that we have tried to do is be 
very focused about our professional development.
    We had a changing community. It was--the immigrant 
population came to the educators as a surprise. And being able 
to educate them was quite difficult at the beginning, so 
utilizing Title 3 funding to also educate the teachers in how 
to differentiate instruction for ELL learners.
    The other thing we had to do was re-educate our English-
language learner teachers. One of the thing I observed is that 
traditionally, our ELL teachers were seeing their role as what 
I call a mother hen syndrome, is protecting their ELL students 
and trying to do the best, but it was primarily tutoring 
services versus teaching content and teaching language 
acquisition.
    So for the regular classroom teacher, being able to train 
them so that they could provide good teaching for ELL learners, 
as well, not just what I call the Crayola curriculum. Every 
student in every country knows how to color and they don't need 
a teacher to teach them that. They need to be taught content.
    And the ELL teachers needed to see their jobs as--we need 
to also work with the regular classroom teachers, and we need 
to provide learning, not just simply tutoring and let me help 
you with your homework.
    The combination of the two and working together so the ELL 
teacher understands what the classroom teacher is doing and 
vice versa and then working together collaboratively during our 
collaboration period, that is what they are looking--they are 
looking at the data, but what do they need to teach in both 
arenas? That has been very successful.
    Ms. Kearns. I would like to add that that is ditto for 
children with disabilities. When special ed teachers protect 
them, it is a lifetime ruin, so we really have to have access 
to the general curriculum. We have to have professional 
development. We have to have all of those things if the kids 
are going to meet the standard.
    Chairman Kildee. The chair now yields 5 minutes to the 
gentlelady from Illinois whose interest in education has been 
very deep, very broad. When she was a member of the state 
legislature in Illinois, she played a key role in the 
reorganization of the Chicago school district. And it helped 
turn that district around, and we are all very grateful to her 
for that.
    Mrs. Biggert?
    Mrs. Biggert. Thank you very much for those kind words, Mr. 
Chairman. And I would like to kind of address something that we 
haven't been talking about, but since we are addressing the 
needs of diverse students, I understand that several of you 
have excellent programs to serve homeless students. And I would 
wonder how much of an increase for services there has been 
since, obviously, the climb in the unemployment and the 
recession.
    And, second of all, I am wondering about--and maybe 
introducing legislation which would allow Title 1 funds to be 
available for transportation for homeless students, which would 
then provide greater resources for the McKinney-Vento program. 
And I would like to know if your districts receive McKinney-
Vento subgrants.
    And maybe Dr. Dale or Dr. Curry, I think you both----
    Mr. Dale. Yes, thank you for raising that question. 
Homeless children are an issue. Economic circumstances does 
increase that, as parents lose jobs and then children are 
left--or parents are left in trying to grab--migrate to 
wherever it is they might be able to live.
    As we well know, the theory behind the McKinney-Vento act 
was to make sure that the stability for that child was then 
their school. And so when we do that, we obviously do increase 
transportation costs. And while we get funds to cover some of 
that, it is nowhere near the expenditures that we have in 
Fairfax County.
    We used to spend in excess of $5 million on transportation 
costs for homeless children, children who are foster care, 
which we have put in somewhat the same category of trying to 
provide stability. And while we redesigned some of our 
transportation processes, we are still in excess of $2 million 
that we are spending to transport kids to give them that stable 
environment in their school. Any assistance in that area would 
be tremendously helpful.
    Mrs. Biggert. Dr. Curry?
    Mr. Curry. And even rural areas are no stranger to issues 
of the homeless. We have a large transient population, and 
there is a lot of movement when jobs are lost to move back home 
often and move in with grandmother and grandfather at times, 
but sometimes that is not a possibility, as well.
    So my district has invested a great deal. And managing the 
homeless, I don't have any numbers in front of me, but I do 
know that it is significant, and we do not, however, exceed the 
available money through McKinney-Vento, because everything we 
need has been made available.
    Mrs. Biggert. Is there anybody else that would like to 
comment on that? No? Then I have one other question, and that 
is about, you know, the testing and the IEP. And I know that we 
had a hearing yesterday--and Secretary Duncan said that testing 
with the IEP rather than the general--that single test for 
those with severe disabilities, he thought, would be an option 
that he would like to look at.
    And, Dr. Curry, you mentioned it, and then, Dr. Kearns, you 
seem to have a little difference of opinion on that, so----
    Mr. Curry. Yes, we need to move to measuring progress of 
all students, first of all. How much progress did we make and 
aim to--for those who are behind, to make more than one year's 
progress? And so overall, for all children, movement to 
assessments that identify progress and movement to assessments 
that identify progress so that we can also reward teachers for 
helping bring about student progress is important.
    And when it comes to special needs populations, when 
appropriate, their IEP will dictate, will tell you that they 
should be held accountable to the same assessments, but at 
times that maybe it won't be appropriate, and I think that 
needs to be taken into consideration and measure of every 
child's progress is critical.
    With such a specialized program for a special needs 
student, you have a lot more information to go on, on whether 
or not that child is progressing.
    Mrs. Biggert. Dr. Kearns?
    Ms. Kearns. Absolutely the IEP plays an important role. 
However, I would point out that Bruce is the classic example of 
a student who had an IEP, and the IEP team failed terribly. And 
it was only because the teacher had to figure out how to assess 
him for his alternate assessment, that she asked for 
assistance, and that is how he got his technology.
    So I would say that absolutely the IEP is an important 
tool, but it is not an accountability tool. The other concern I 
have about using the IEP for that is that we really need 
parents and teachers to form partnerships. And my biggest 
concern about that is the inherent possibly resulting in 
litigation, and we really don't need to go there. We really 
need to reinforce parent-school partnerships.
    But all kids need to be in the assessment and 
accountability system, and I think Bruce's example is the 
classic example of where IEP teams sometimes don't have all the 
expertise they need to make those important decisions.
    Mrs. Biggert. I see it as a very sensitive issue that we 
will really have to look at. Thank you both. I yield back.
    Chairman Kildee. We have been told that we may have a vote 
in about 10, 15 minutes, so we will have to move along as 
quickly as possible because coming back after a series of votes 
would take over an hour, so we will try to move along.
    But the gentleman from Puerto Rico, Mr. Pierluisi?
    Mr. Pierluisi. Thank you, Mr. Chairman.
    I would like to extend my own welcome to the witnesses, 
particularly Ms. Diaz, who I understand was raised in Puerto 
Rico. I am glad to see, Mr. Chairman, that my fellow Puerto 
Ricans are contributing to the general welfare of the great 
state of Michigan. [Laughter.]
    Chairman Kildee. We appreciate your generosity in sharing.
    Mr. Pierluisi. Welcome, everyone. Today's hearing addresses 
educational issues faced by a range of diverse learners. 
Because I have only a brief period of time, I want to focus my 
questions on the needs of English-language learners, which are 
the fastest growing segment of the nation's school-age 
population.
    How well our schools educate the students will dictate the 
future success of our nation. To meet the needs of English 
learners, our schools must provide not only highly qualified 
teachers of English as a second language, but also teachers who 
can teach the students in their native tongue.
    Yet schools in Puerto Rico and in many states are having 
great difficulty in recruiting highly qualified, bilingual 
teachers certified to teach ESL and subject-specific classes in 
the student's native language. Due to the dearth of quality 
applicants, many teachers of English learners do not have the 
fluency for ESL teaching skills necessary to provide effective 
instructions to the student population.
    As I see it, the need for high-quality bilingual education 
extends beyond the needs of English learners. We must prepare 
all students to work and succeed in the 21st century worldwide 
marketplace and to provide students in the United States with 
the same language skills already required of students in Europe 
and Asia. That is why it is important that high schools 
graduates of all background be able to communicate in more than 
one language.
    I should say that, actually, I am impressed with your 
English, Ms. Diaz. I hope that my Spanish matches yours. But 
that should be the goal. I am talking now about Spanish, 
students who Spanish is their first language, but the same 
applies to other languages.
    I would like now to just ask a couple questions. I know 
that timing is running.
    Ms. Diaz, I agree with your recommendation that this should 
provide more professional development to teachers working with 
English-language learners. Have you found certain professional 
development programs to be particularly effective for teachers 
of English learners? Have you used teacher exchanges as a way 
for teachers to learn from other teachers and schools?
    Ms. Diaz. I have used a SIAP model, and that has been also 
very effective. I have trained all of our English-language 
teachers in the SIAP model within our district. I believe that 
colleges need to be doing a better job.
    And I agree that we need to be focusing on the endorsements 
of teacher prep programs. Most of our colleges are moving away 
from the bilingual model certification process to the ESL model 
and that the difference between the two is, if you are 
bilingually certified, you have to choose a second language to 
learn and be certified in. You have to show proficiency in a 
second language. In an ESL endorsement model, you do not have 
to know a second language.
    So primary concern there really comes when you are working 
not only with new immigrant families that need that second 
language; I also find that there is a distinct difference 
between a teacher that has gone through the process of learning 
a second language and their ability to teach immigrant students 
and someone that has not.
    And more importantly, with working with parents, if you 
have that second language, it opens the door very wide open to 
working with the parents and the success that it brings when 
you educate the parents. And you need that second language to 
be able to do so, so I am in complete agreement. [Speaking in 
Spanish.]
    Mr. Pierluisi. Oh, my goodness. She is good at that, too. 
[Laughter.]
    And then, Mr. Dale, Dr. Dale, does your school district 
have a shortage of teachers of English as a second language? 
And what strategies for increasing the number of qualified ESL 
teachers do you have or are using? Any recruitment incentives, 
professional development? Can you elucidate on this?
    Mr. Dale. We are actually blessed with not having a 
recruitment issue. And we focus on, in our English-language 
learning program, we have probably one of the nation's premier 
people in Teddi Predaris in knowing how to train our own 
teachers in how to best teach English, because that is--we have 
two areas to focus on.
    I am going to reinforce the other bilingual component that 
you talked about. We have children from 200 different 
countries, 120 different languages, so there is no way we can 
do dual language. We just don't have that capacity.
    So we focus on teaching all of our English-language 
learners English proficiency and monitor that through Title 3 
processes and make sure that they, in fact, learn that and exit 
from the program within usually 3 to 4 years max.
    The other piece that I want to note is that we have 
actually put in place our own goals to have all of our children 
conversant in at least two languages upon graduation, because 
we do also think that that is important.
    Now, 40 percent of our kids go home every night where 
English is not the primary language, so we have a benefit of 
having bilingual, trilingual students already, but we want to 
make sure they are extremely proficient in English, because 
that is our mission, and then also pick up another language to 
be part of the world.
    Mr. Pierluisi. Thank you.
    Chairman Kildee. Thank you very much.
    The gentleman from Pennsylvania, Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    I first want to thank each of our witnesses for your 
testimony and, maybe most importantly, for your shared 
committed to our nation's children and working to make sure we 
do right by all of our nation's children. That comes through 
loud and clear.
    First, just a comment, I guess. Dr. Curry, you talked about 
your concerns with rural school districts. And my oldest 
sister, who taught for about 20 years, for a number of years 
taught in west Texas, where kindergarten to 12, her school 
had--the entire district had about 100 kids. She was the 
English department for seventh through twelfth grade. Her 
graduating class, the one year I visited her, was four.
    So your comment of one student, you know, impacting 
dramatically in that assessment, I think, is something we need 
to be very conscious of in assessing how the school district, 
the school building, which was all one, or the teachers are 
doing in the classroom.
    Ms. Diaz, I wanted to specifically ask you--you emphasized 
the importance in your original testimony and in answering 
questions about the family involvement, and I share that 
completely. Danny Davis and I have sponsored legislation, 
Education Begins at Home, about trying to help promote 
parenting education programs, nurse family partnership and 
others.
    But specifically in the area of literacy, in your area in 
Michigan, if Even Start--is there an Evan Start program in your 
area? Are you familiar with it? And how do you see that working 
in trying to promote family literacy that then helps the parent 
at home?
    Ms. Diaz. In our county, we have implemented a similar 
program called Bright Beginnings. And they are very similar, as 
far as foundational beliefs and philosophies, and that--we have 
a representative stationed in our district to work with parent 
0 to 5 and performing play groups in our schools. It is a great 
feeder program, and it focuses on literacy skills.
    They go to the home for home visits and they also bring the 
families into the schools. We have a--we are very fortunate to 
have a bilingual Bright Beginnings representative within our 
district, and she works collaboratively with our district to 
provide not only literacy skills, but the content that we would 
like her to focus on, as well.
    She is also part--I mentioned the family night, the reading 
night, math night. She is part--actively a part of those 
nights. And she brings the families into those activities and 
provides them in Spanish, as well.
    Mr. Platts. Sounds like your district's really on the ball, 
as far as the importance of that 0 to 5 years and combining the 
literacy with just the broader education skills or foundation 
through the parents.
    Ms. Diaz. Extremely important to start them out as soon as 
possible.
    Mr. Platts. Yes, thank you.
    Dr. Gipp, you emphasized the importance of Native Americans 
in the classroom with Native American students. Is there a 
percentage today that you are aware of what percent--if you are 
familiar with those numbers--that are Native American teachers 
and tells us kind of how far we need to get, if we place a 
greater emphasis here?
    Mr. Gipp. Well, within the tribal communities, it still is 
very, very small. We are lucky to have 5 percent to 10 percent 
of our teachers in our school systems, sometimes as high as 20 
percent, that are teachers in a given school system. But it 
will vary from one school and one tribe to the next.
    Again, a large percentage of our students are educated in 
public school systems, so there are fewer teachers there, so we 
have a major need to redevelop and put forth a teacher 
initiative to teach and train more people to become--Native 
Americans to become teachers.
    Many in the past have already retired, and so it is very 
important to bring in teachers that also have the cultural 
identity and the teaching of native heritage within the 
curriculum as we develop these systems.
    Mr. Platts. Yes, I think well stated. Thank you.
    And I am going to try to squeeze in one last question, Dr. 
Dale. When you talked about the assessment--and if I understood 
your statement correctly, you said a standard assessment across 
the country. And usually we hear local control, not top-down, 
but bottom-up. And did I understand you correct?
    Because one of my concerns is we are incentivizing--this 
goes to the competitive grant process, also, that Dr. Curry 
referenced, that we are going to incentivize or give more and 
more money--in fact, most of the increase is in the competitive 
grant category, not in Title 1, not in IDEA, but through 
competitive grant, which I think is a point that Dr. Curry made 
that was important, but also in how you do the assessment, if 
you do a regional, statewide--or a regional approach versus a 
state doing their own assessment, you are disincentivized from 
doing your own. Can you clarify where you are on that?
    Mr. Dale. I think I misspoke, because I remember the words 
I said. What I believe is that we should have a set of national 
standards, and I think the local assessments in how to get 
there are still fine, because I think we have a sophistication 
in the assessment industry now to be able to do cross-state 
comparisons if we can agree on a set of standards.
    And my quest would be to make sure that those standards are 
globally competitive, as well.
    Mr. Platts. Okay, so but still national standards that, in 
essence, we are setting here?
    Mr. Dale. I think the notion of trying to get all of the 
states to agree upon a set of standards is a positive direction 
to go, because our kids are so mobile now----
    Mr. Platts. Yes.
    Mr. Dale [continuing]. We do them a disservice to not 
having some kind of assurance.
    Mr. Platts. If it is more that cooperative state approach 
versus a national--meaning us----
    Mr. Dale. Yes, I would agree. Thank you for----
    Mr. Platts. So thank you, Mr. Chairman. I yield back.
    Chairman Kildee. Thank you.
    The gentleman from Colorado, Mr. Polis?
    Mr. Polis. Thank you, Mr. Chairman.
    Access to quality early childhood education is a very 
important strategy if we are to improve the educational 
outcomes of at-risk students and if we are ever going to truly 
succeed in making America a leader in college graduates by 
2020, which is the goal that President Obama has set for the 
nation and I strongly support.
    I wanted to give you the chance--since it wasn't covered in 
the testimonies--to address some of the severe inequities the 
low-income and other at-risk students face before they even 
enter the classroom in kindergarten. Lacking adequate 
preparation, these students are already behind before they even 
set foot in a public school environment.
    I would like to open it up to see who would like to discuss 
the role of expanding access to high-quality early childhood 
education, especially for low-income students, as part of 
systemic school reform and any recommendations you might have 
in that area within the context of ESEA reauthorization.
    Yes, Dr. Curry?
    Mr. Curry. Quality early childhood, pre-kindergarten 
opportunities ought to be generally available to all students. 
I think some states have done a better job of opening up access 
so that all children as 4-year-olds can have the opportunity 
for school.
    But it is something that I have no doubt as an elementary 
educator initially that that early intervention is critical, 
and that is the--without that, that is, indeed, part of the 
deficit that many children come in the door with, is that they 
didn't have the same opportunities. So that needs to be 
strengthened. It would be helped with some federal dollars to 
help support that.
    Mr. Polis. Ms. Diaz?
    Ms. Diaz. I would encourage partnership. There is a lot of 
early childhood programs. Bright Beginnings is one I have 
mentioned already. Head Start is also stationed within our 
district. We have a strong preschool program with the Great 
Start Readiness Program, and we have all-day kindergarten.
    With our immigrant population, that has become very 
effective, as well, and all-day, everyday kindergarten program. 
That solid foundation between Bright Beginnings, Head Start, 
pre-school, and all-day kindergarten has brought incredible 
results.
    Mr. Polis. Okay, yield back.
    Chairman Kildee. Thank you very much.
    The gentlelady from California, Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to all of you for being here.
    I wanted to focus on the diversity of the teaching force 
for a moment. According to the Department of Education 
statistics from 2007 and 2008--and may well be quite aware of 
this--83 percent of public school teachers were white, 7 
percent Latino, 7 percent African-American, and overall, 75 
percent were female.
    So we have a problem. There aren't enough Latino and 
African-American teachers, but particularly male teachers for a 
diverse teaching force.
    The Washington Post ran an article last summer basically 
talking about the fact that young male African-American 
students really don't feel that they belong in a classroom. 
Interestingly enough, it doesn't affect the young women quite 
as much, because at least they have a female model, even though 
it may be an Anglo model in the classroom.
    And I wonder if you could speak a little bit to this issue. 
I actually was on the board of San Diego Unified from 1983 to 
1992. And at that time, we created the African-American Male 
Project, which recognized that it was impossible to put--to 
have a teacher in every classroom, but if we could group 
students and at least they could have a benefit of a really 
good and strong role model.
    What is--you know, from your experience, how really as we 
move forward with the new authorization, what is it that you 
would like to see there that the Department of Education could 
be doing to increase that kind of diversity?
    Mr. Dale. I would like to jump in on that one, because I 
share with you--and I would add into the mix the shortage of 
Asian teachers in general, male and female both, is a very 
underrepresented group.
    I think the incentive in the pipeline is there are a lot of 
people who entered education with various incentive programs 
several decades ago that no longer exist, but I think that is 
the key piece. The other ones are new teachers for America 
programs that actually go out and overtly begin to recruit 
underrepresented groups of individuals.
    And the final piece that we need to pay attention to is our 
workforce is changing, and we are now experiencing people with 
multiple careers. And so it is not just the college area, but 
it is out of the general workforce where people are now wanting 
to come into to education. So we have to have our sights on not 
only recruiting in the pipeline and through college, but also 
as people are changing positions in their own careers and 
lives.
    Mrs. Davis. And as a few more, if you can respond--but, you 
know, I think intuitively, we know how important this is. I 
don't know whether--do we have really statistics that show that 
it really does make a difference in terms of the performance of 
young African-American males, for example, or other groups?
    Mr. Gipp. I was just going to say that teacher training 
initiatives are a major priority for us with respect to tribal 
and Indian communities across the nation. We need to set a goal 
of recruiting at least 2,500 new Indian teachers in our systems 
alone, and that is probably the low side of it, out of the 
Department of Education's goal of 200,000.
    And we need to reauthorize teacher training initiative for 
tribal colleges and universities that I was talking about 
earlier. And we need to have a tribal priority allocation for 
native teacher recruitment. We need to do very strong 
recruitment. If we don't, then, you know, nothing is going to 
move and nothing is going to happen. And I am not convinced 
that enough is being done across the board when we talk about 
these special populations, particularly with Native Americans.
    Mr. Wotorson. I would just say very briefly that the 
federal government can support the incentivizing process to 
ensure that we do, in fact, not only recruit more diverse 
teachers, but also to retain and support them.
    As you well know, part of what we are struggling against is 
a perception in our country today that the teaching force is no 
longer an honorable or desirable profession. We have to figure 
out a way to reverse that trend.
    Mrs. Davis. Thank you.
    Mr. Curry. And if I could add, continue to support 
alternative routes to education. My community is--even though 
it is a rural community, we are 25 percent African-American, we 
struggle just the same, of getting enough good role models. 
Many times we get them from the military. We continue also to 
support ways to get, you know, troops into the classroom after 
their retirement after they do their term.
    Mrs. Davis. Thank you. My time is up, but if I might just 
say, I am very interested in the evaluation process that we are 
talking about in the new reauthorization. If you have some 
ideas or thoughts about that, I would certainly welcome how we 
can do a better job of incentivizing school districts and 
schools to have good oversight in terms of principal 
evaluations, as well as teachers.
    Thanks a lot.
    Chairman Kildee. Thank you.
    The chair now recognizes the gentlelady from California, 
Ms. Chu.
    Ms. Chu. Thank you, Mr. Chair.
    Ms. Diaz, I just wanted to commend you on your 
collaborative model in your district, especially as it pertains 
to English-learner students. Since I have so many in my 
district, I was very, very interested in that. And I was 
impressed by how you include every stakeholder, including 
teachers, who are able to have input into the process.
    Now, my question pertains to assessment. According to No 
Child Left Behind, English learners were supposed to be given 
tests that were appropriate for them, but we had a problem in 
California and continue to have it, where English learner 
students are given the mainstream English language assessment 
test the moment they walk in the door.
    And, of course, the students don't understand it, they fail 
miserably, and that is their first experience with the school. 
I am wondering how you dealt with the whole assessment issue.
    Ms. Diaz. In Michigan, we have two tracks for assessing 
English-language learners. We are testing them, their language 
acquisition knowledge, with LVA, and we are also assessing 
their content acquisition with the regular state assessment, 
the MEAP.
    We have provided 9 months of reprieve for new immigrants 
that are coming to the states for the first time. And we are 
grateful for that. We do feel that as they increase in grade 
levels, it does become more difficult for the students to not 
only acquire the English language, but the content level that 
is required.
    And so 9 months is not quite enough, if you come in as a 
brand-new immigrant to--as a sophomore, for example, in a high 
school and are expected to know all the content area that goes 
along with that. And so it is a challenge, and the 
modifications that would be required would probably be more 
time, granting them more time to be able to acquire the 
language and then, also, of course, the content.
    It is important. We do our best, and it is difficult, and 
we have to have high expectations, because we--I also see it as 
a delicate balance for educators to also get a little lazy with 
that time period that we would give them as time to acquire, so 
there needs to be a delicate balance between making sure that 
during that time effective teaching is happening and that we 
are not sheltering them and mother-henning them, as I explained 
earlier, but also utilizing that time very effectively to 
maximize their language acquisition learning.
    Ms. Chu. Are you giving them the same test--does every 
student get the same test? Because an alternative would be a 
test that may be more appropriate for them.
    Ms. Diaz. Yes, they do have the same test. There are some 
modifications that we can--standard modifications that we could 
utilize for ELL learners. And, again, we appreciate that, but 
there could be more.
    Ms. Chu. And do you do those modifications to the 
assessments?
    Ms. Diaz. Yes. Yes. We absolutely utilize every 
modification that we are provided with.
    Ms. Chu. Dr. Dale?
    Mr. Dale. In Virginia, we have an alternative assessment 
that was not only able to be used for special needs, but also 
our early English-language learners in the assessment of 
reading competency or literacy competency, really. And so we 
basically had an alternative assessment available for the first 
2 years of their English-language learning, and they were able 
to demonstrate literacy competency versus trying to--test could 
just become an English-language vocabulary test if it is not 
done in an alternative manner.
    So we were able to do that during those first 2 years, and 
then they moved into the regular assessment.
    Ms. Chu. And what was the benefit of doing it that way?
    Mr. Dale. The benefit of doing it that way was to allow our 
children to demonstrate literacy competency while still 
recognizing they are still learning English. And they on the 
human side of it could recognize that, oh, I actually know what 
is expected, and so allow that kind of growth and development 
to continue to occur, instead of discouragement that you were 
speaking of.
    Ms. Chu. Right. And, finally, Ms. Diaz, you emphasized 
parental involvement. The California Association of Bilingual 
Educators brought to my attention the elimination of funding in 
the president's budget for parental information and resource 
centers. They use the funding extensively to help ELL parents 
in California become involved in the school system. What impact 
does this funding elimination have on your school district's 
ability to engage ELL students? Or where did you get the 
funding to involve the ELL parents?
    Ms. Diaz. We utilized Title 3 immigrant funding and limited 
English proficient funding for our parent involvement. We have 
had this Parents Are Teachers program for about 10 years now, 
and it has always come from the Title 3 funding.
    With the immigrant funding, this year, we added the before-
and after-school tutoring. What is unique about that is that we 
have the regular content teachers re-teaching the content for 
the students, and that is very critical.
    You know, our parent involvement has been a very strong 
part of our success in educating the parents. When they 
understand what they can do at home, they are empowered to 
really make those changes. They tell us that because of that, 
their lives have changed, not just what they do routinely on a 
daily basis at home with what we have taught, but their jobs. 
They are much more successful citizens, as well. They have gone 
on to, you know, go on to college, get GEDs, get, you know, 
promotions at work to supervisory positions.
    And so it empowers them as citizens, as well, when we can 
incorporate parental involvement.
    Ms. Chu. Thank you.
    Chairman Kildee. Thank you very much. This panel has 
individually and collectively been very helpful to the 
committee, as we work our way through the reauthorization of 
this bill. I want to thank the staff for bringing together such 
a distinguished group, again, individually and collectively. It 
has been very helpful to us.
    I love hearings, because you really get people who are 
expert in this, see this every day, and bring that expertise 
here to Washington, and so I thank you very much.
    As previously ordered, members will have 14 calendar days 
to submit additional materials for the hearing record. And any 
member who wishes to submit follow-up questions in writing to 
the witnesses should coordinate with the majority staff within 
the requisite time.
    Without objection and with thanks, this hearing is 
adjourned.
    [An additional submission from Mr. Kildee follows:]

    Prepared Statement of the Tribal Education Departments National 
                                Assembly

    The Elementary and Secondary Education Act (ESEA) is currently up 
for Reauthorization and it is the most important federal law that 
applies to American Indian and Alaska Native tribal students. The ESEA 
currently has 10 Titles with multiple programs. Some are general 
programs, like the Title I Improving Basic Programs, and some are 
specific to Native Americans, like the Title VII Indian Education Act 
programs. Tribal students, whether they attend Bureau of Indian 
Education (BIE) funded schools or state public schools, are served by 
all of the ESEA programs. And, all of the programs could do more to 
help tribal students by recognizing a role, or by enhancing the role or 
roles, including in public school education, of tribal governments as 
sovereign nations. Tribal governments are a major untapped resource in 
education, and this ESEA Reauthorization needs to change that.
    Over 200 of the over 560 federally-recognized tribal governments 
today have education agencies. Known as ``Tribal Education 
Departments'' (TEDs) or ``Tribal Education Agencies'' (TEAs), these 
tribal governmental agencies can help the non-tribal federal and state 
governments serve tribal students. TEDs / TEAs can assist with the most 
fundamental education improvement and accountability functions like 
data collection, reporting, and analysis. TEDs / TEAs can help in other 
areas as well, including the development of curricula, standards, and 
assessments; teacher training; research; and, specific local 
initiatives like truancy intervention, drop out prevention, and 
tutoring programs.
    In particular, TEDs / TEAs are in a unique position to coordinate 
data on tribal students that is generated by various and sometimes 
multiple sources, including federal education programs, public school 
systems, states, and BIE-funded schools. For tribal students, this 
never has happened before; right now we can only imagine accurate and 
current tribe-wide, statewide, or nationwide data-based reports on 
tribal students. But if such reports were available, agencies and 
legislatures of all governments could make data-driven decisions 
regarding tribal students as they implement the next Reauthorization of 
the ESEA.
    For the data roles of TEDs / TEAs to reach their full potential, 
the Family Education Rights and Privacy Act (FERPA) needs to be 
clarified by an amendment that includes TEDs / TEAs as being among the 
education agencies, authorities, and officials to whom protected 
student records and information can be released without the advance 
consent of parents or students. Such an amendment to FERPA would be 
consistent with the TED / TEA programs authorized by Congress since the 
ESEA Reauthorizations of 1988 and 1994 and thus would bring FERPA up to 
date and in accord with the ESEA.
TEDs and TEAs in the ESEA
    The current ESEA authorizes TEDs / TEAs in Title VII and Title X. 
Both Titles contemplate that TEDs / TEAs will coordinate education 
programs; develop and enforce tribal education codes, policies, and 
standards; and provide support services and technical assistance to 
schools and programs. Unfortunately, the funding authorized to support 
this work in Titles VII and X never has been appropriated. This 
Reauthorization should retain both TED / TEA program provisions, 
increase their funding levels to at least $25 million, and strengthen 
them. Moreover, each ESEA Title needs to better connect TEDs / TEAs 
with states, public school districts, BIE-funded schools, and the 
various federal education programs that serve tribal students.
Title I: TEDs as SEAs, Increased Tribal-State Relations; and Teaching 
        Tribal Sovereignty
    Title I is and always has been the biggest ESEA program (over $15 
billion annually). State Educational Agencies (SEAs) can get Title I 
funds if they submit proper plans that address academic standards, 
assessments, and accountability; teaching and learning support; 
parental involvement; and reporting. In the development of these state 
education plans, which are a prerequisite for Title I funds; there is 
no specified role for TEDs / TEAs. This has severely limited or 
impaired the ability of TEDs / TEAs to work with SEAs. The following 
three recommendations should be incorporated into Title I:
            1) TEDs / TEAs should be Authorized to Perform SEA 
                    functions within Tribal Geographic Territories
    TEDs / TEAs should be authorized to perform SEA functions within 
significantly large tribal geographic territories that include a high 
percentage of tribal students served by Title I. For example, twelve 
Indian reservations are larger than the State of Rhode Island, and nine 
reservations are larger than the State of Delaware. Instead of being 
part of a state's Title I education plan, the TEDs / TEAs that serve 
these large tribal geographic bases should be allowed to develop a 
reservation-wide or a tribal-wide plan for Title I funds, which the TED 
/ TEA should submit directly to the U.S. Department of Education. If 
the U.S. Education Department approves the TED's / TEA's plan, the TED 
/ TEA should get Title I funds directly from the Department and perform 
the SEA services within the Tribe's geographic territory.
    Presumably, not every TED / TEAs would immediately seek SEA 
status--some TEDs / TEAs are ready and willing to perform SEA functions 
immediately while others will take several years to develop the 
necessary capacity and infrastructure. For example, the TED / TEA of 
the Navajo Nation is already performing SEA-like functions on the 
Navajo Reservation and is currently working with the BIE to seek 
official designation as a SEA. Another TED / TEA that is seeking SEA 
status is that of the Oglala Sioux Tribe. But although the vast 
majority of TEDs / TEAs are not likely to seek SEA status in the 
immediate future, they should have that option when they are ready.
    Where TEDs / TEAs do get Title I funds directly under an approved 
tribal-wide plan, TEDs / TEAs should have the option of sub-granting 
the Title I funds to the public schools that serve tribal students, or 
co-administering the Title I funds with the public schools, or even 
administering the Title I funds themselves.
    These changes will connect Title I funds and programs with states 
and tribes. The recommendations may sound radical, but the fact is that 
the BIE-funded schools have long been able to administer Title I grants 
directly. And the most recent ESEA Reauthorization--the No Child Left 
Behind Act--went even further to allow TEDs / TEAs to set standards in 
BIE-funded schools and even accredit BIE-funded schools. The public 
schools, where 92% of tribal students go, now need these same kinds of 
options.
            2) States should be Required to Meet with TEDs or TEAs as a 
                    Condition of Receiving Title I funds
    In other instances, outside of significantly large tribal 
geographic territories, where there are TEDs / TEAs located within 
states, the ESEA should, at a minimum, require the SEAs of those states 
to identify the TEDs / TEAs, meet with them on a quarterly basis, 
develop joint strategies for improving education in schools with tribal 
students served by Title I, and jointly report on the results of such 
meetings to the U.S. Education and the Interior Departments as a 
condition of receiving Title I funds.
            3) Encourage or Mandate the Teaching of Tribal Sovereignty 
                    as a Condition of Receiving Title I Funds
    Yet another suggestion for the Title I program would be to 
encourage those states receiving Title I funds that have TEDs / TEAs 
operating within their borders, if they do not already have one, and 
there are five states that do--California, Maine, Montana, Oregon, and 
Wisconsin--to enact state laws that mandate the teaching of tribal 
sovereignty in their K-12 curriculum on a regular basis. If a state 
chooses not to enact such a law, TEDs / TEAs with students served by 
Title I funding must be allowed to develop such a curriculum mandate 
that the public schools must follow.
Titles II and III: Native Language Curricula and Teacher Certification
    Twelve states--Arizona, Idaho, Minnesota, Montana, Nebraska, 
Nevada, New Mexico, North Dakota, Oregon, Washington, Wisconsin, and 
Wyoming--now have laws that address tribal language curriculum and the 
certification of teachers for these curricula in their public schools. 
All of these laws acknowledge a role of tribes as sovereigns in the 
development and implementation of these laws. The Reauthorized ESEA 
should require the SEAs and the TEDs / TEAs in these states to jointly 
track the progress made in implementing these laws and their impacts on 
students, and to jointly report on these matters to the Department of 
Education and Congress. Further, the ESEA Reauthorization should 
authorize, at least on a nationwide pilot project basis, other states 
and tribes to enter into compacts or agreements for tribal language 
curricula development and teacher certification, and authorize 
appropriate funding to implement such compacts or agreements.
Titles VII and VIII: Tribal Eligibility or Increased Eligibility as 
        Grantees
    In the ESEA Reauthorization, for the Indian Education Act Formula 
Grant programs and for Impact Aid funding, tribes should be eligible or 
increasingly eligible to receive directly these funds, if a tribe has a 
TED / TEA and is willing to enter into a compact with a public school 
district to co-manage and co-administer these funds. For the most part, 
public school districts have not been willing to voluntarily agree to 
such arrangements, and thus the ESEA should allow the funding to go to 
eligible Tribes that then would be required to enter into cooperative 
agreements with public school districts.
Title IX: Definition, Tribal Consolidated Plans and Reporting, Tribal 
        Waivers
            1) Definition
    The ESEA and other federal statutes at present have several 
different definitions of TEDs / TEAs which has caused some confusion. 
The following definition of TEDs / TEAs should be included in the next 
ESEA Reauthorization definitional section:
    (__) Tribal educational agency
    The term ``Tribal educational agency'' means the authorized 
governmental agency of a federally-recognized American Indian and 
Alaska Native tribe (as defined in 25 U.S.C. Sec. 450b) that is 
primarily responsible for regulating, administering, or supervising the 
formal education of tribe members. ``Tribal education agency'' includes 
tribal education departments, tribal divisions of education, tribally 
sanctioned education authorities, tribal education administrative 
planning and development agencies, tribal education agencies, and 
tribal administrative education entities.
            2) Tribes receiving ESEA funding should, like SEAs, be 
                    Eligible to Consolidate Administrative Funds 
                    eligible for Consolidation
    Currently, Part B of Title IX allows SEAs to consolidate 
administrative funds available in ESEA programs eligible for 
consolidation if the SEA can demonstrate that the majority of its 
resources are from non-Federal sources. TEDs / TEAs receiving ESEA 
funding should be able to consolidate administrative funds according to 
the same set of requirements.
    Tribal students are served by programs funded from federal, 
private, tribal, and state sources. Potentially all of these programs 
contain funds to be used for administrative purposes. The authority of 
TEDs / TEAs to consolidatie administrative funds received will reduce 
waste and ensure efficient program management at the tribal level.
            3) Tribes, Like SEAs, should be Authorized to Submit ESEA 
                    Consolidated Plans and Consolidated Annual Reports
    Currently, Title IX Part C allows SEAs to submit ESEA consolidated 
plans and consolidated annual reports. Consolidated plans include 
general information about each program and a single set of assurances 
applicable to each program. Consolidated annual reports replace 
individual annual reports for each program included in the consolidated 
annual report. TEDs / TEAs receiving ESEA funding similarly should be 
eligible to submit consolidated plans and consolidated annual reports.
    The purposes of Part C are to ``improve teaching and learning, by 
encouraging greater cross-program coordination, planning and service 
delivery'' and to provide greater flexibility through consolidated 
plans, applications, and reporting. No Child Left Behind Act, 20 U.S.C. 
Sec. 7841. For tribal students, the potential need for program 
coordination is particularly great. Authorizing TEDs / TEAs to submit 
consolidated plans and consolidated reports is consistent with the 
express purposes of Part C.
            4) Tribes should be Eligible to Request Title IX Waivers 
                    for Public Schools within Tribal Geographic 
                    Territories
    Currently, Title IX Part D allows for waivers by the Secretary of 
Education of ESEA statutory and regulatory requirements. Tribes are 
among the eligible entities that may request a waiver for tribally 
operated schools. The ESEA reauthorization should retain this option 
and extend the option for TEDs / TEAs to seek waivers of statutory and 
regulatory requirements for public schools at least within 
significantly large tribal geographic territories.
    Such waivers have the potential to allow TEDs / TEAs the 
flexibility and local control needed to improve the academic 
performance of tribal students. Specifically, various reports and 
research show that tribal students generally perform better when taught 
using tribal language and culture. The Navajo Nation has requested a 
Title IX waiver to develop its own definition of AYP. Other Tribes 
could request waivers to develop their own standards, assessments, and 
curriculum to meet the unique cultural-academic needs and goals of 
their communities.
Conclusion
    The drop out rate of tribal secondary and elementary students 
nationwide remains an alarmingly high 50%. All stakeholders that are 
affected by this dire statistic and other troubling statistics 
regarding tribal student academic achievement, test scores, and college 
readiness, stand to gain from enhanced roles of TEDs / TEAs in the ESEA 
Reauthorization. The recommendations in this report will result in 
crucial structural and programmatic changes and support to develop TED 
/ TEA roles and capacity to better-serve tribal students.
                                 ______
                                 
    [An additional submission from Mr. Miller follows:]

                                                    March 25, 2010.
Chairman George Miller,
Committee on Education and Labor, 2181 Rayburn House Office Building, 
        Washington, DC.
Re: Supplemental Testimony for Subcommittee hearing on ``Elementary and 
    Secondary Education Act Reauthorization: Addressing the Needs of 
    Diverse Students''

    Dear Chairman Miller: National Disability Rights Network (NDRN) 
staff attended the March 18, 2010 hearing of the Early Childhood, 
Elementary and Secondary Education Subcommittee on Elementary and 
Secondary Education Act (ESEA) Reauthorization: Addressing the Needs of 
Diverse Students'' and offers this letter to supplement the record on 
the use of a student's Individual Education Program (IEP) as in 
accountability tool.
    Dr. Daniel Curry testified that one of the ways in which rural 
school districts could be helped in ESEA reauthorization would be to 
use a student's IEP as an accountability measure under the ESEA. No 
other witness testified in support of this position. Dr. Jacqui Farmer 
Kearns testified that the IEP should not be used as an accountability 
tool, as that was not its intent. She also testified that if the IEP 
were to be used as an accountability tool it could result in an 
increase in litigation under the Individuals with Disabilities 
Education Act (IDEA).
    NDRN strongly agrees with Dr. Kearns' testimony that a student's 
IEP should not be used as an accountability measure for ESEA purposes. 
The IEP lists a student's current level of educational performance, 
annual goals designed to meet the needs arising from the disability, 
how progress is to be measured, and the services to be provided to the 
student. Therefore, even for students with the most severe 
disabilities, the IEP does not address all areas of a student with a 
disability's education and does not serve as the student's curriculum. 
Furthermore, the IEP is not necessarily grounded in any outside 
objective measure, such as the regular education curriculum. Thus, 
strong performance on a student's IEP goals need not have any 
connection to progress in the general curriculum.
    One of the benefits of the NCLB is the expectation that all 
students, including students with disabilities, are expected to learn. 
This was operationalized by requiring that all but a small percentage 
of students with disabilities be given the same assessments as all 
other students. This requirement allows us to know how students with 
disabilities are performing compared to their peers who do not have 
disabilities. It provides an objective way to determine how students 
with disabilities are performing on an outside measure of performance 
tied to the expectations for all students. It would be harmful to 
remove this critical, objective mode of comparison at this time, as 
students with disabilities, even those who should be expected to 
perform at grade level, continue to lag behind their peers who do not 
have disabilities.
    There are other options within NCLB's current framework that could 
be utilized to more accurately measure how students with disabilities 
are performing on grade level content without removing them from the 
ESEA accountability system. For example, NCLB currently allows students 
with disabilities to take the same assessment which is given to all 
other students, but with accommodations as approved within an IEP. 
However, certain accommodations have been deemed to invalidate the 
test, even if the accommodations have been approved by the IEP team, 
are used by the student in all course work, and may very well be used 
by the student for the rest of his or her life. These restrictions 
should be lifted from any reauthorization of the ESEA to better enable 
students with disabilities to demonstrate their proficiency.
    Finally, as Dr. Kearns testified, using the IEP as an 
accountability measure would increase litigation under IDEA. It is our 
experience that the ways in which a student's progress is measured are 
not the subject of IDEA due process hearings with any frequency. The 
primary issues raised in due process tend to pertain to the nature or 
amount of services being provided to a student, whether the student's 
placement is in the least restrictive environment, and other issues 
concerning the nature of the students program. If the IEP were to 
become the accountability measure, it would place this issue at the 
forefront of litigation. An increase in litigation would only divert 
resources from cash-strapped schools and increase tension between those 
schools and parents. Given the negative academic and financial 
consequences of using the IEP as an accountability mechanism, NDRN 
strongly advises against it.
    Thank you for the opportunity to submit our views on this very 
important issue.
            Sincerely,
                                           Ronald M. Hager,
                                             Senior Staff Attorney.
                                ______
                                 
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
                                ------                                


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
